<html>
<title> - BEST PRACTICES IN VETERAN HIRING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                    BEST PRACTICES IN VETERAN HIRING

=======================================================================

                             FIELD HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       FRIDAY, FEBRUARY 19, 2016

                 FIELD HEARING HELD IN CINCINNATI, OHIO

                               __________

                           Serial No. 114-56

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
 
 


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
                          _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-102                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001              
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                              ----------                              

                       Friday, February 19, 2016

                                                                   Page

Best Practices In Veteran Hiring.................................     1

                           OPENING STATEMENTS

Honorable Brad Wenstrup, Chairman................................     1
Honorable Mark Takano, Ranking Member............................     2
Honorable Bill Johnson, U.S. House of Representatives, 6th 
  District; Ohio.................................................     3
Honorable Steve Chabot, U.S. House of Representatives, 1st 
  District; Ohio.................................................     4

                               WITNESSES

Sergeant Dominic F. Gulliford, Recruiting & Background, 
  Cincinnati Police Department...................................     5
    Prepared Statement...........................................    37
Mr. John Sapp, Executive Director, GE Aviation...................     6
    Prepared Statement...........................................    38
Ms. Stephanie Huff, Chief Human Resources Officer, HELP Heating 
  and Air Conditioning...........................................     8
    Prepared Statement...........................................    39
Mr. Jeff Carper, Executive Sales Director, Total Quality 
  Logistics......................................................     9
    Prepared Statement...........................................    39
Mr. Matt Disher, Military Recruiting Program Manager, Cintas.....    20
    Prepared Statement...........................................    40
Mr. Dan Knowles, President & CEO, Tristate Veterans Community 
  Alliance.......................................................    23
    Prepared Statement...........................................    42
Mr. Chris Newsome, Director, Strategy Development, 
  RecruitMilitary................................................    24
    Prepared Statement...........................................    49

                       STATEMENTS FOR THE RECORD

James R. O'Flaherty, JDOG Junk...................................    50
Emily Turner, Ohio Goodwills.....................................    52


                    BEST PRACTICES IN VETERAN HIRING

                              ----------                              


                       Friday, February 19, 2016

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., at 
the Anderson Township Civic Center, 7850 Five Mile Road, 
Cincinnati, Ohio, Hon. Brad Wenstrup [Chairman of the 
Subcommittee] presiding.
    Present: Representatives Wenstrup and Takano.
    Also present: Representatives Chabot, Johnson, and Messer.

          OPENING STATEMENT OF BRAD WENSTRUP, CHAIRMAN

    Mr. Wenstrup. Well, good morning, everyone, and the 
Subcommittee will come to order. I thank everyone for joining 
us for today's field hearing of the Subcommittee on Economic 
Opportunity of the House Committee of Veterans' Affairs 
entitled ``Best Practices in Veteran Hiring.'' As many of you 
know, I am Congressman Brad Wenstrup, and I am proud to serve 
the 2nd District of Ohio, and I am also honored to serve as 
Chairman of this Subcommittee.
    Before we begin the important business that we are all here 
for today, I do want to comment on another issue within the 
Department of Veterans Affairs that is currently affecting our 
community, and something I am sure many of you have heard about 
following the VA's vague announcement last Friday before the 
long weekend about allegations of misconduct at our local VA 
medical center.
    Although the announcement was ambiguous and the Department 
continues to try to downplay the allegations, news reports have 
stated that the situation involves misconduct within higher 
leadership at the Cincinnati Medical Center and regional VA 
leadership. There are also reports of substandard patient care, 
which, if true, should not go unpunished.
    The Committee will continue to pursue investigations into 
this hospital, and VA's Office of the Medical Inspector and the 
independent VA Office of Inspector General have recently also 
launched investigations. While at this time I cannot comment on 
the investigation, I can promise you that the House Committee 
on Veterans' Affairs will remain vigilant. This investigation 
and its outcomes will not be swept under the rug, and at the 
same time, we will seek to ensure that the whistleblowers are 
protected.
    We are committed to working diligently in a transparent 
manner in ensuring that if wrongdoing occurred, that every 
individual involved is held fully accountable. Our veterans and 
taxpayers deserve no less.
    Before I proceed, I want to thank my colleague and Ranking 
Member of this Subcommittee, Mr. Mark Takano of California, for 
his help this year as our Subcommittee worked to move important 
legislation that will assist our veterans and their families as 
well as his partnership as our Subcommittee provided meaningful 
oversight of programs at VA and the Department of Labor so that 
our veterans and their families are better served.
    It is a pleasure to have him here today, and I want to 
thank him again for his hospitality when we held a field 
hearing in his district last month to examine veteran 
homelessness. Thank you for making the trip and being here in 
Cincinnati with us today, Mr. Takano.
    I also want to extend a special thanks to the Anderson 
Township Civic Center who has graciously provided the 
facilities for our use today. It is certainly a great location 
for our hearing and today's job fair.
    We are here this morning to focus on one of the most 
important goals of our Subcommittee, helping veterans find 
meaningful and gainful employment following their military 
careers. While this Subcommittee does focus on this back in 
Washington, I want to give our Buckeye State employers the 
opportunity to provide their input as to why they employ and 
retain veterans.
    While veteran unemployment continues to go down and is now 
at 4.7 percent nationwide, I feel that more can be done to 
inform quality employers of the advantages of bringing veterans 
into their workforce. Furthermore, we need to continue to work 
both at the Federal and State level to connect veterans to the 
jobs that will benefit both the veteran and their families, and 
allow them to fully succeed in the civilian sector, as well as 
providing employers with quality employees.
    As Members of Congress, each of us can introduce bill after 
bill and provide as much oversight as we want over Federal job 
programs, but I think we can all agree that it is our country's 
strong support for our military and the value that our 
servicemembers continue to have in their civilian lives that 
encourages the strong desire of employers to bring veterans 
onto their payrolls.
    Every single witness sitting here today has a story to tell 
and concrete reasons why hiring veterans is not just beneficial 
to the success of a company, but is a commonsense practice. As 
a veteran, and Army reservist myself, I look forward to hearing 
from each of our witnesses as to how we can better spread the 
word not only within the local area, but nationally as to why 
employers should always want to bring the men and women who 
have sacrificed for our country into their workforce. It is 
companies like the ones sitting before us here today that 
exhibit the positive reality of recruiting and retaining 
servicemembers in our civilian labor force. We all have much to 
learn from them.
    A few housekeeping items before I recognize the Ranking 
Member. I want to remind our audience that today's hearing is 
not a town hall, and we will be hearing only from Members and 
invited panelists. My staff and I would be happy to speak with 
members of the public following the hearing.
    Finally, I want to thank my colleagues and good friends, 
Representative Steve Chabot from Ohio's 1st District, 
Representative Bill Johnson from Ohio's 6th District, and 
joining us in just a little bit will be Representative Luke 
Messer of Indiana's 6th District.
    At this time, I ask unanimous consent that our three 
colleagues be allowed to sit at the dais and ask questions.
    [No response.]
    Mr. Wenstrup. Hearing no objection, so ordered. I now 
recognize Mr. Takano for any opening remarks he may have.

        OPENING STATEMENT OF MARK TAKANO, RANKING MEMBER

    Mr. Takano. Good morning. I want to start off by saying how 
happy I am to be in Cincinnati this morning, even though it is 
much colder than it is in California. I thank you for inviting 
me, Mr. Chairman, and I thank you for the wonderful hospitality 
you are extending to me and the staff who have accompanied me 
here. We had a delicious slab at Montgomery's last night.
    [Laughter.]
    Mr. Takano. I thought about wearing the bib on the dais, 
but I decided to leave it with my staff.
    I have to say you have a beautiful downtown, wonderful old 
buildings. And we have a magnificent country, a beautiful 
country, and one of the great things about being a Member of 
Congress is you get to see a lot of it. And I am delighted to 
be able to visit the district of my colleague, with whom we 
have done so much work on congressional oversight, demanding 
more accountability for the VA, and, most importantly, we have 
worked together in a bipartisan way to pass some important 
legislation.
    You hear a lot about the division in Congress, but the 
Veterans' Committee is one of the most bipartisan Committees, 
if not the most bipartisan Committee, in the Congress. And we 
have worked together to accomplish things for our veterans and 
the American people. And so, I am very proud to be here, and I 
am pleased to have you as a colleague.
    I look forward to the testimony of your constituents who 
made hiring veterans a top priority, the corporate good 
citizens, the public sector employees, recruiters, and others. 
We want to know what works so we can grow the ideas we hear 
today that have brought success to veterans here in Cincinnati, 
and help expand into other parts of the country. So I thank you 
for being here and for answering our questions, and I look 
forward to your testimony.
    I yield back, Mr. Chairman.
    Mr. Wenstrup. Well, thank you. On our first panel we have 
Sergeant Dominic Gulliford with the Cincinnati Police 
Department, Mr. John Sapp with GE Aviation, Ms. Stephanie Huff 
with HELP Heating and Air Conditioning, and Mr. Jeff Carper 
with Total Quality Logistics. And I thank you all for being 
here.
    Before we turn to you, I would like to ask the other 
Members if they have any brief comments they would like to 
make. Mr. Johnson.

          OPENING STATEMENT OF HONORABLE BILL JOHNSON

    Mr. Johnson. Absolutely, and I thank, Mr. Chairman, for 
holding this hearing. I am Bill Johnson, and I represent Ohio's 
6th Congressional District. And if you are not familiar with it 
[inaudible] it sits along the Ohio River about an hour outside 
of Cleveland at the top, and an hour outside of Cincinnati, 
home to somewhere around 50,000 veterans [inaudible]. We feel 
that we are part of [inaudible].
    I am also a 26-and-a-half-year veteran of the United States 
Air Force [inaudible] veterans is one of my very top 
priorities. As I have said many times before, I am grateful, 
extremely grateful, to the men and woman who have served our 
country and still serve today. And I strongly believe that 
veterans are the segment of our society that most deserve our 
gratitude and assistance because of the sacrifices that they 
make. They put family on hold. They put careers on hold. They 
put their lives on hold to support and defend the Constitution, 
and to provide security for our way of life. To the veterans 
who have joined us today, I would like to thank each of you for 
your service to our great country as well.
    The role of the Department of Defense and the Veterans 
Administration is to ensure that our returning veterans are 
made aware of services and the benefits that they are entitled 
to. I further believe that we as a Nation have a responsibility 
to assist our veterans in transitioning back into the workforce 
when they are finished their tours of duty.
    I am looking forward to hearing from our witnesses today on 
their success in veteran hiring [inaudible]. What you are doing 
is commendable, and as I am sure you will agree, by hiring 
veterans you are [inaudible] that you are hiring highly 
skilled, highly motivated, trained professionals, some of the 
best workers that our Nation has to offer.
    I would also like to hear from you on what suggestions you 
might have to improve the hiring process for both employers and 
for veterans, and how Congress, what we can do to assist in 
that effort. It is my hope that I can take some of these 
suggestions back and share them with [inaudible] Ohio to ensure 
that all veterans across my State and our Nation are afforded 
opportunities to gain full employment.
    So I am looking forward to hearing from our panelists 
today, Mr. Chairman. Thanks again for the opportunity and for 
holding this hearing, and I yield back.
    Mr. Wenstrup. Thank you, Mr. Johnson. I appreciate you 
being here. Mr. Chabot.

          OPENING STATEMENT OF HONORABLE STEVE CHABOT

    Mr. Chabot. Thank you, Mr. Chairman. I want to thank Brad 
Wenstrup for inviting me to participate in this hearing today. 
I am not actually on the Veterans' Committee. I am the Chairman 
of the House Small Business Committee, and I am on the Foreign 
Affairs Committee and the Judiciary Committee. But he invited 
me to participate, and I did not want to miss this opportunity. 
He also told me to keep it real brief, so I will.
    [Laughter.]
    Mr. Chabot. I also want to thank our colleague from 
California, Mr. Takano. I am glad he got an opportunity to 
savor some Montgomery Inn Ribs last night, and while he is in 
town, I would encourage him to also partake in some of the 
other delicacies like Skyline, and Gold Star Chili, and 
Graeter's Ice Cream, and I am sure we could all name so many 
other things that we probably far too much. But it is great 
stuff.
    In all seriousness, I want to thank Brad for mentioning the 
concerns that have been raised recently about the VA hospital, 
and I agree with everything he said. And it is absolutely our 
responsibility to make sure that our veterans are getting the 
highest quality care possible, and we should leave no stone 
unturned in finding that out.
    So thank you for inviting me to participate, and I will be 
quiet so we can listen to our distinguished panel here.
    Mr. Wenstrup. Thank you. Thank you. So back to the panel. 
Each of you will be recognized for 5 minutes for your opening 
statement, and we will begin with Sergeant Gulliford.

               STATEMENT OF DOMINIC F. GULLIFORD

    Mr. Gulliford. Thanks for having me, everyone. I just 
wanted to touch base for the Cincinnati Police Department. Oh, 
okay.
    Mr. Wenstrup. Thank you.
    Mr. Gulliford. I guess you guys need to hear me. I'm here 
on behalf of Chief Isaacs, and he's off doing something else 
right now or he would be here himself.
    Mr. Wenstrup. Understand.
    Mr. Gulliford. Let me start by saying that the Cincinnati 
Police Department believes it to be an honor and a privilege to 
employ and have as part of its team veterans from the United 
States military. We feel that there is no higher reverence to 
show towards one's country than to serve in the military with 
honor, pride, and dignity. To employ individuals that embody 
the spirit of respect for the country and themselves, allows us 
to maintain a high level of excellence as a standard in the 
honorable calling of policing.
    The Department and the city have used several different 
approaches--excuse me--to attract veterans to apply. For 
example, qualified veterans are awarded 5 bonus points on the 
initial exam. If the veteran is disabled, they receive 10 
additional points on the initial exam. Our exam is so 
competitive that 5 or 10 points may vary significantly and can 
propel you from probably 250th to in the top five. Currently 
you must be an Ohio resident to receive the additional points 
at the time of application.
    The department has aggressively looked for any career fair 
opportunities on military posts or job fairs anywhere around 
that cater to veterans either on a military base or those 
hosted off base by military. We have constructed a group of 
adjunct recruiters as well to go along with our recruiting 
unit, which is six people, who are veterans to assure we always 
have enough personnel to attend as many veteran recruiting 
functions as possible.
    We recognize that the area natives who are in the military 
and are returning to this area will be seeking employment 
beyond the ETS date. We also realize that there are many 
veterans who will be relocating to this area for the first time 
after they get out of the military. Knowing that honorable 
discharged veterans make for excellent police candidates, the 
distance of travel to recruit at a military facility is not an 
issue.
    Military Guard and reservists are also highly sought after 
candidates for our department. Our department and the city 
attempts to accommodate Members of the Guard and Reserve as 
much as possible through their careers with the department. 
Once you are selected to the police academy, the military 
provisions start. They will be in accordance of how far along 
you are within the academy.
    We have had recruits called up for active duty while in the 
academy. Upon being released for active duty, if they have 
completed a significant portion of the academy training, we 
will have assembled the necessary steps to get them started or 
reinstated and certified as soon as possible. If they have not 
attended the academy for long, they may have to wait until the 
next academy class sits, but we will hold their positions 
available for them. When called for active duty after the 
academy graduation, your position and seniority will stand no 
matter how long of a deployment.
    As a part of our local recruitment efforts, we have 
developed postcard size fliers announcing our application and 
recruitment which we distribute throughout normal recruitment 
career fairs and place in local businesses and other facilities 
with a high volume of pedestrian traffic. A list of local 
veterans' addresses within the areas of Hamilton County, Butler 
County, Warren County, and Clermont County and also the City of 
Dayton was secured through a private company. Those same fliers 
were turned into email mailers--I am sorry, not email mailers--
just regular mailers. There we go. And sent to their post 
service--let me see if I can get this correct--postal service 
addresses. There we go. The list totaled about 5,000 addresses. 
Approximately 30 percent, hovering around 30 percent, of the 
Cincinnati Police Department sworn personnel, are veterans.
    We take great pride in hiring veterans. Again, we recognize 
that veterans make great candidates due to their commitment to 
duty and their want to serve and assist others. As a part of 
the 30 percent, I am actually a veteran of the Marine Corps, 
and our chief is a veteran of the National Guard.
    We take personal pride in helping veterans establish 
themselves in the City of Cincinnati police ranks. We advocate 
giving back to well-deserving individuals who have given to our 
country. We can also be at peace knowing that we are helping to 
keep a high level of professionalism by hiring veterans within 
our department that not only helps us stand out as one of the 
best departments, but ultimately gives the citizens of 
Cincinnati the type of service they deserve, require, and want.

    [The prepared statement of Dominic F. Gulliford appears in 
the Appendix]

    Mr. Wenstrup. Thank you, Sergeant. I appreciate that. I 
also appreciate what I have seen the police department do, 
which is allow you to wear your branch of service, whether it 
is current or previous, on your uniform. And I think it is nice 
to have that recognized.
    Mr. Sapp, you are now recognized for 5 minutes.

                     STATEMENT OF JOHN SAPP

    Mr. Sapp. Thank you very much. It is a true pleasure to be 
here and have the opportunity to speak on behalf of GE 
Aviation. My name is John Sapp, and I am the executive director 
of sales, operations, and offset at GE Aviation. In addition to 
this role and more applicable to this gathering, I also lead GE 
Aviation's Veteran Network. GE is honored to have over 10,000 
U.S. military veterans continue their career with us.
    And building on our strong commitment to military veteran 
recruitment and development, we launched GE's Veteran Network 
across all of our businesses in November of 2009. The network 
is organized within three pillars. Those are to support, hire, 
and grow veterans, the local community of veterans, and 
veterans that have joined our ranks. Both our own employees who 
are veterans and veterans in the local communities we feel 
benefit as a result of the Veteran Network itself.
    First, let me thank you for the opportunity to speak with 
you today. As an 11-year veteran of the U.S. Air Force, it's a 
real pleasure to be a part of this testimony, and I look 
forward to learning more about the great initiatives that are 
underway to support veterans here and their transitions.
    GE is passionate about hiring veterans. At GE, we value the 
leadership, loyalty, integrity, and commitment to excellence 
instilled through the participation in military service. We 
believe strongly that this service helps make great leaders 
that are disciplined, strategic thinkers with a level of 
loyalty that is, frankly, ummatched. This appreciation of 
veteran talent as well as GE's desire to give back to those 
that have made incredible sacrifices for the betterment of 
others, were the primary reasons for the 2012 launching of GE's 
initiative to hire 5,000 veterans over a 5-year period.
    As of February 12th, just entering our 4th year, we have 
already hired 4,889 veterans. Within GE Aviation, we've hired 
1,137 veterans in that 4-year period and 2 months, and by year 
end, we'll have by far exceeded our overall commitment with a 
significant margin.
    GE's hiring and transition practices have been successful 
in attracting and hiring a wide range of veteran talent from 
junior enlisted to general officer. For example, GE's 
transition assistance workshops and one-on-one mentoring 
sessions are executed in conjunction with the Chamber of 
Commerce's Hiring our Heroes initiative by our own GEV 
Membership. GE's veteran employees coach with a focus on resume 
building as well as interviewing techniques and job search 
strategies. These seminars are designed to help military 
personnel successfully communicate the skills they have learned 
in the military to the corporate world.
    Furthermore, GE is also a founding Member of the American 
Corporate Partners, a national mentoring program dedicated to 
helping veterans transition from the armed forces to private 
enterprise through career counseling and networking with 
professionals. Internally, the GE Veteran Network and human 
resources have worked together to create a much deeper 
understanding of veteran talent through our Value of a Vet 
campaign, messaging the unique attributes of military talent 
that will help GE hiring managers to better understand veteran 
backgrounds.
    Within GE Aviation, HR has also created a special team 
solely focused on connecting veteran talent with job postings. 
That team is actually represented here today. That team further 
impacts our efficiency in making sure that we align veteran 
applicants with the right roles here at GE Aviation.
    For mid-career transition, GE offers the Experienced 
Leadership Program designed specifically for military officers. 
The program is a unique opportunity to work in three 8-month 
rotations within a GE business. Qualified candidates with 
exceptional military service are selected to start their 
careers with GE in this 2-year cross-functional program, 
including both on-the-job training and formal classroom 
training. I was fortunate enough to have entered the company 
through this program just 8 years ago.
    Once on board, GE works hard to make sure the veteran has 
an effective transition into the company. Our GEV Network's 
growth pillar is focused on supporting the development of 
veterans, including career development, mentorship, and 
coaching, coupled with networking and veteran connection 
activities that are just a natural part of the Vet Network 
itself. Our military employees find a supportive environment 
for growing a great career at GE.
    Overall, we're passionate about hiring, supporting, and 
growing veterans. We've made strong progress towards our goals 
to date, but obviously look forward to continuing to improve 
our support of veterans going forward, as well as learning from 
the other businesses and government practices in forums such as 
this.
    Thank you again for allowing me the opportunity to 
participate.

    [The prepared statement of John Sapp appears in the 
Appendix]

    Mr. Wenstrup. Thank you very much.
    Ms. Huff, you are not recognized for 5 minutes.

                  STATEMENT OF STEPHANIE HUFF

    Ms. Huff. And thank you again for allowing us to 
participate as well.
    At HELP Plumbing, Heating, Cooling, and Electric, we pride 
ourselves on our commitment to activities supporting veterans. 
Our support spans many different programs throughout the year.
    We are most known for our donation program where we give a 
portion of our profits every year to a local veterans support 
program. In the last several years, we have donated to the DAV 
program. In addition, we have donated free services and 
equipment to local wounded veterans as well as widows and the 
children of fallen soldiers. We announce our donations at our 
annual Veterans Day Appreciation Breakfast, which we host on 
site every year on Veterans Day.
    We also strongly support hiring veterans. There are several 
different ways we focus our efforts on connecting with veterans 
for hiring opportunities throughout the year. We actively 
participate in sponsored events, including recruit military 
hiring fairs and other veteran-targeted career fairs.
    In addition, in the spring of 2015, we hosted our own 
veterans hiring event on site at our headquarters where we 
brought in other military friendly employers with hiring needs, 
as well as nonprofit organizations that support veterans for a 
daylong event. During this event, we offer on-site interviews, 
free lunch, and other veteran-specific support programs and 
services. We look forward to bringing this program back again 
this May.
    Outside of career fairs, we also focus on posting jobs on 
our local Ohiomeansjobs.com Web site, and reach out to the 
partners with their veteran support system, and have them 
assist us in finding qualified talent. We also reach out 
through trade-specific sites and take advantage of programs and 
marketing materials provided through organizations, such as 
troopstotrades.org through the Nexstar Legacy Foundation to 
find individuals with a specific interest in learning a skilled 
trade.
    There are many industries that have the potential to 
participate and register apprenticeship programs throughout the 
State. Both businesses and job seekers benefit from apprentice 
opportunities. Participating and qualifying apprenticeship 
programs are offered in health care, construction, utilities, 
and many other industries.
    While HELP Plumbing, Heating, Cooling, and Electric doesn't 
currently participate in State-recognized apprenticeships, HELP 
does pay a hundred percent of training expenses for all 
training for new hires. This includes anyone with or without 
any specific skilled trade experience.
    Our program consists of 3 to 5 months of intense training, 
including classroom and field training experience, as well as 
ongoing training throughout the year to consist of over 200 
hours a year to keep our team members on top of all the 
necessary industry-specific training needs. We also pay for all 
training and certification exams to receive State recognition, 
license, and certifications within each trade that we offer. 
This is a great opportunity for veterans transitioning to full-
time work where they want to learn a trade from the ground up.
    In 2013, HELP Plumbing, Heating, Cooling, and Electric was 
present at the DAV National Commanders Award for Outstanding 
Small Employer of the Year for Auspicious and Meritorious 
Effort in providing employment opportunities for ill and 
injured workers.
    And thank you again for allowing us to participate today.

    [The prepared statement of Stephanie Huff appears in the 
Appendix]

    Mr. Wenstrup. Thank you.
    Mr. Carper, you are now recognized for 5 minutes.

                    STATEMENT OF JEFF CARPER

    Mr. Carper. Hello, and thank you, Representative Wenstrup, 
for inviting us. I'm honored to represent Total Quality 
Logistics at today's hearing and talk about some of the 
company's best practices when it comes to attracting and 
retaining military employees.
    My name is Jeff Carper. I was a 7-year Army vet myself. Now 
I am the executive sales director at TQL. I have three main 
points that I want to discuss today. First, how we hire 
military employees. TQL is a recruiter exclusively dedicated to 
finding military talent for our company. LeeAnn Ryan is with me 
today. She's a senior airmen in the United States Air Force 
Reserve whose own military experience and understanding of what 
it takes to transition into the civilian world makes her well 
suited for the role.
    LeAnn recruits for both sales and non-sales positions at 
TQL. Her familiarity with the military jargon and terms that 
often appear on military resumes gives her a good idea of where 
an applicant might be best suited. Among other things, LeeAnn 
attends career fairs on military bases and will be focusing on 
TAP and ACAP, the transition assistance program events for 
military leaving the services or going into the Reserves. She 
works with the TVCA, who are here today, Hiring our Heroes, 
Recruit Military, and other organizations to actively recruit 
from all branches of the service with postings on military-
specific Web sites and job boards.
    Second, why TQL is a good fit for military servicemembers. 
TQL is a freight brokerage firm. We connect shippers who have 
freight that needs delivered with carriers who can haul it. We 
specialize in truckload transportation although we don't own 
any of our own trucks. This isn't a job most people coming out 
of school or the military have trained for. The trucking 
industry has unique rules, regulations, and a language all its 
own.
    We train our experts through a 5-month long training 
program similar to what servicemembers experience in military. 
We hire for the job based on soft skills, the soft skills that 
make one successful in brokering freight are similar to those 
taught in the military: the ability to learn new skills and 
concepts quickly, adopt a mission-driven philosophy, and put 
forth core values to exceed expectations.
    Some of the comments we've heard from our military 
employees as to why they succeeded at TQL, one, ``I work for a 
large company, but my team is like a small squad or fire team. 
We work well together.'' Another one: ``Being in the military 
gives you a base structure. Self-motivation and self-discipline 
are expectations here.'' Third: ``The culture and energy we 
have here are very similar to the Army. You always have a new 
goal in front of you, a new challenge to meet, an opportunity 
to be a leader.''
    As we continue to grow and expand into new cities around 
the country, we need employees with strong leadership 
capabilities. More than 90 percent of our sales leadership and 
management positions are filled from within the company. And, 
again, teaching leadership skills is an area where military 
excels.
    Third, the TQL culture. TQL is and always has been 
committed to being a military friendly company. Multiple 
managers at TQL have been recognized with Patriot Awards for 
their exemplary support of employees in the National Guard and 
Reserve. The company received the Above and Beyond Award from 
the ESGR, the Employer Support of the Guard and Reserve, and we 
recently received our third military friendly employer 
recognition from Victory Media and GI Jobs magazine.
    The tone is set from the top. One of our core focus areas 
for our company's charitable efforts is military causes. The 
company and our employees actively work to raise money and 
support military causes. In 2015, we worked with 13 military or 
veteran organizations contributing nearly $70,000 in charitable 
giving. And it's more than just dollars. It's personal support, 
too. This is an excerpt from a letter sent directly to all of 
our military employees from CEO Ken Oaks on the day TQL signed 
its national statement of support with the ESGR.
    ``Members of the military are some of the strongest team 
members at TQL. What you have learned through your military 
service, discipline, hard work, leadership is important. What 
you choose to serve reflects integrity, self-sacrifice, and 
love for your countrymen is invaluable. Thank you for choosing 
to join the TQL team, but, even more importantly, thank you for 
your service to our country.'' Thank you.

    [The statement of Jeff Carper appears in the Appendix]

    Mr. Wenstrup. Thank you very much. I want to thank you all 
for your testimonies here today. And now we will go into 
questioning, and I now recognize myself for 5 minutes for 
questions.
    You know, we are always trying, on this Subcommittee 
especially and throughout the VA Committee, to do more to 
prepare our military members for that transition out of the 
military and into the private sector, trying to do more on the 
front end, if you will, before they transition from actually 
being in uniform and going to the VA side of the equation.
    And so, what are some of the challenges that each of you 
see for that transition for the employees? There has got to be 
some, right? They are going from a different way of life, a 
different way of employment. So what kind of challenges do you 
face, and how do you deal with those? And we can start with 
you, Mr. Carper.
    Mr. Carper. Sure. You know, I remember back to 2001 when I, 
leaving the military, and how difficult a transition it was. I 
knew what my skill level was. At least I felt like I knew what 
it was. I knew what my experience was, and I also thought that 
I knew how that would transition into the civilian world. What 
I found was, is that a lot of the companies that I was 
interviewing with did not understand, because they did not have 
a background in the military, how easily to take my experience 
and transition it over to something that would correlate with 
what they were doing inside their company.
    So I think the more education that we can get to employers, 
you know. A lot of us here on the panel have military folks 
that can spend time reviewing resumes and making sure that we 
are involved with veterans that are interviewing so we can help 
explain some of the subtle intricacies that go along with 
somebody's resume and background. But for companies that do not 
have that inside their organization, it is, you know, maybe 
partnering up with the local veterans organization or, you 
know, one of the organizations like we have represented here to 
be able to explain those things to the individuals that are 
doing the hiring. I think that is real important.
    Mr. Wenstrup. Thank you. We also try to encourage the 
education of our troops as they are coming out that, as they 
are filling out resumes and someone asks their qualifications, 
they do not just put ``sniper.''
    [Laughter.]
    Mr. Wenstrup. They put, I show up for work on time, I am 
disciplined, I pay attention to detail, those type of things 
that I think parlay well into employment. Ms. Huff?
    Ms. Huff. Very similar to what Mr. Carper said, I do not 
come from a military background myself, so having some 
individuals within the organization that I support and that 
support me when we are doing the interview process. We will 
have them actually participate in the interview process so that 
veterans that are coming in feel comfortable as part of the 
interview process and interviewing with somebody that maybe 
they can connect with.
    When they come on board, we have quite a few veterans that 
work for us, so we try to make sure that we, you know, can gear 
them toward the individuals maybe within the military so that 
they can feel that connection and help them go through that 
process.
    Mr. Wenstrup. Mr. Sapp.
    Mr. Sapp. Yeah, I would definitely echo how the veterans 
describe their experience as being a challenge that I think I 
certainly faced and other veterans that we continue to see, you 
know, applying for roles directly within GE. That was really 
the energy behind us launching our Value of a Vet campaign, 
which was primarily initially started internally in terms of 
raising awareness of what veteran experiences meant and being 
able to, you know, translate veteran resumes. But that can be 
done externally as well, so as to support the veterans as they 
draft their resumes.
    The other part that I talk to also is, you know, a lot of 
veteran transitions are actually happening in a two-step 
process, which is, they go to further their education before 
they then make the jump into the corporate world. This is an 
area that within southwest Ohio we have been very focused on, 
and not just GE Aviation, but also a number of the other 
companies represented here. Partners with schools, like Xavier 
and University of Cincinnati, to try and make sure that we 
support them, you know, the veterans in their transition. And 
we do things like mentorship programs.
    So at GE Aviation, we have 29 mentor pairings that are 
being set up at Xavier as an example to help support them 
making decisions in terms of majors and, you know, job 
interviews, internships, and things to that effect. We think 
that is a critical part of supporting that transition, and I 
think a message that should make its way into those folks that 
are making the transition.
    Mr. Wenstrup. Thank you. Sergeant?
    Mr. Gulliford. Yes, sir. Fortunately, in the field of law 
enforcement, there is always a lot of people existing the 
military, that would like to be police officers. Most dream of 
being police officers, but I do not know of anywhere where you 
can be one until you reach 21 years of age.
    So we do not have a lot of the same issues as some of the 
corporate companies. Our main issue is being able to reach out 
to the veterans and let them know that we are actually hiring. 
And then our police department as an individual department, we 
are in competition with all the other ones because the process 
is so long. Right now, we are in the throes of trying to scale 
down some of our processes, but we obviously need to vet our 
people very well.
    But we are always looking for honorably discharged 
veterans, and we do not necessarily have a problem with getting 
them if we get to them to let them know that we are available 
and we are hiring.
    Mr. Wenstrup. Well, thank you for being here today, and 
hopefully you will get one or two of them if not more, so I 
appreciate that.
    Mr. Takano, you are now recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman. You know, I understand 
that a lot of corporations use technology to review resumes, 
and they often search for key words in that resume. Is that a 
practice that you employ, and does it help to train the 
veterans to be aware of that so not only do they not put 
``sniper'' down on the resume, but they actually are attuned to 
tailoring a resume very specifically toward an objective and 
using key words on the resume. It could be any one of you who 
could answer that question.
    Ms. Huff. Yes, I would say I do a lot of resume database 
searching, so I am always looking for very specific words, 
whether it be specific skills, you know, looking for customer 
service, or looking for sales, or looking for anything that 
could help them in their job. So definitely listing their 
skills specifically could definitely help them tailor employers 
to be able to find them more successfully on the internet.
    Mr. Takano. So having people very specifically trained on 
how to teach the veteran, how to tailor their resumes to really 
think about their military service, and how it transfers, what 
skills they have, and to do the research on how to match with 
the employer is really an important part of them being able to 
make a successful match in application.
    Ms. Huff. Yeah, absolutely, and if they are wanting to go 
towards a specific industry, making sure that anything that 
they received from the military or any experience that they 
have had, make sure that they are listing those things that 
could cater towards specifically.
    Mr. Takano. Now, you know, I believe that our military has 
America's finest. They step forward to serve their country. But 
a lot of them, you know, the transition is not so smooth from 
the military into the workforce. Some of them get into trouble 
in that process, and some have actually go afoul of the law. Do 
you have something like a veterans court here that allows a 
veteran to be assigned sort of an alternative track to the 
justice system? Mr. Gulliford, do you know anything about that?
    Mr. Gulliford. We do not have an alternative practice 
inside the court system, but what we do have is, we have a 
group of veterans that are police officers that become involved 
with a veteran through a call, a law breakage, or whatever it 
might be, that those individuals can be called and moved into 
other services to help them out.
    Mr. Takano. Where I am going with this line of questioning 
is that one of the areas of bipartisan interest is criminal 
justice reform. And I think, especially that our veterans 
deserve that second chance when they make a mistake, because 
their military service history might be a contributing factor 
to the troubles they are having.
    Mr. Wenstrup. Will the gentleman yield for a second?
    Mr. Takano. Sure.
    Mr. Wenstrup. In Hamilton County, we do have a veterans 
court, and that does not specifically involve the police 
department. It's as they get into the court system, we have a 
court for them. And it has been very successful, and a lot of 
our veterans who have found themselves in trouble get a mentor. 
They have to go through a rigorous course and they graduate, 
and then they get back on their path to success.
    Mr. Wenstrup. Sure.
    Mr. Takano. I appreciate that. Do your business 
organizations have any way to take account of someone who might 
have been incarcerated in the hiring process so that they are 
summarily excluded? That we especially reach out to our 
veterans who might have gone through the veterans court, find 
ways to get them employed and in an appropriate situation. But, 
I think if we make this investment in our veterans, it could 
have an impact on how we think about criminal justice issues.
    Mr. Sapp. For GE Aviation, I am not sure of the policy. I 
would have to speak with HR relative to what they do with 
background checks and, you know, impact of an incarceration in 
a veteran applicant.
    Ms. Huff. We do not have anything as of today specifically 
that targets that.
    Mr. Takano. And I do not bring it as a criticism. We are 
struggling with this in my area, and as well as a whole big 
issue of that transitioning of former incarcerated people back 
into civilian life. I am specifically interested in how we look 
at our veterans, especially looking at it from the homeless 
point of view or also just ways in which we can fully welcome 
them back. You know, when we say ``welcome home,'' I think we 
have got to really mean that.
    And some of our veterans, you know, are coming back with a 
lot of issues. Most of them are just incredible assets to any 
organization. We have got to get them ways to match up. Anyway, 
I will have more questions for the second panel. I yield back.
    Mr. Wenstrup. In that vein, if I may interject, we also 
have an agency here called Cincinnati Works, and it works with 
not only veterans, but anyone who has had a record that wants 
to turn to their life around. We have certain employers that 
are willing to engage, and it has been a great opportunity for 
people to get a second chance.
    Mr. Takano. Mr. Chairman, I want to learn more about that 
because I think this is an issue all around the country.
    Mr. Wenstrup. Mr. Chabot, you are now recognized for 5 
minutes. And I would like to welcome my colleague, Mr. Messer 
from Indiana. Thank you for joining us here today as well. Mr. 
Chabot.
    Mr. Chabot. Thank you very much, Mr. Chairman. Mr. Carper, 
I will start with you if I can. I had a nephew that worked at 
TQL for a number of years, and you are discussing family 
things, and how is work, and that. And he discussed it as a 
very challenge, very competitive environment, very 
invigorating, but tough. And you already note some of the 
qualities that are necessary to be successful at TQL. Could you 
expound upon that a little bit, the relationship between the 
experiences that one has in the military and then in the 
private sector, especially at a company like TQL that has been 
very successful?
    Mr. Carper. Absolutely. You know, first, I will start off 
by saying it was a nice experience to be able to hire for a 
company like TQL because I was not put in a box. I was not told 
that I had to hire somebody with a college degree. I was not 
told that I had to bring somebody in with a specific, you know, 
background or skill set.
    So much of the job is, you know, and I hate to make 
civilian comparisons to military jumps. But when you are in the 
military, there are so many last-minute decisions that you have 
to make, so many changes, so many late night, you know, job 
assignments that you have. And that translates well into what 
TQL does because our reps are 24/7, 365 a year.
    The very first Thanksgiving I worked for TQL, I spent 3 
hours in the afternoon upstairs on the computer with my cell 
phone attached to my ear because we had a truck in the middle 
of the country, you know, that broke down, and the refrigerated 
unit had stopped running. And those kind of things are not 
unique. Those are the kind of things that happen on a daily 
basis with our reps.
    So the ability to be able to think quickly, to deal with 
really stressful situations. Being a third party logistics 
company puts in an interesting spot in the fact that we do not 
own the trucks. The drivers are not employees of ours. So we 
are stuck in the middle of, you know, a challenging situation 
where it might not have anything to do with what we did. The 
customer does not care, and, you know, in a lot of cases they 
rain down a lot of stress on the individuals.
    And, you know, the ability to compartmentalize that, you 
know, and come back in the next day reinvigorated with the 
ability to, you know, to try and pick up new clients and new 
freight is real important.
    Mr. Chabot. Thank you. Speaking of trucks and trucking, we 
have had recently some representatives of the trucking industry 
in our office, and we are talking about them. One of the things 
that they mentioned is that now and into the foreseeable 
future, they mentioned about 100,000 positions are either 
available now or will be available for truck drivers all across 
the country. And with the economy that is to some degree coming 
back, we would like to see it be much stronger, but it is 
coming back to some degree.
    So you need to haul freight all over the country, and we 
have a lot of young men and women that served in Iraq and 
Afghanistan that were driving, you know, huge rigs under very 
stressful and challenging circumstances. And it seems like a 
pretty good fit. I am not suggesting everybody that comes back 
should become truck drivers, but the jobs are there. Are you 
hearing that? Could you--
    Mr. Carper. We are hearing that, yeah. We have thousands of 
carrier relationships, carriers that run for each and every 
week. And we are hearing consistently from them that they are 
keeping the doors wide open for new drivers. They have 
equipment that is sitting in their yard not being used because 
they do not have drivers to fill them right now. So, yes, we 
are hearing that.
    Mr. Chabot. We had heard one of the problems that they 
mentioned was that, you know, to get the license that you need 
to drive a big rig, you need to be 21 years old, and some of 
our folks coming out of the service are not 21 yet.
    Mr. Carper. Correct.
    Mr. Chabot. And so, perhaps we need to legislatively at the 
State level or whatever to work on it. Have you heard that as 
an issue?
    Mr. Carper. Not as much that. You know, my own opinion is, 
I think it is a bit of a generational thing. It does not seem 
like a whole lot of the younger generation is looking forward 
to being a long haul truck driver, which is not an easy life. 
You spend days on the road. You are sleeping in your cab. You 
are eating at truck stops. It is not the most glamorous job in 
the world. So I think that is probably a bigger problem.
    Mr. Chabot. Thank you. I have only got a little time left. 
Sergeant, I will turn to you if I can, and thanks for your 
service to all the veterans, and, in fact, the veterans that 
are here today. We appreciate what you have done for us.
    I had the pleasure of having our new FOP president, Dan 
Hill, in my office just yesterday, and when Chief Isaacs took 
over, we met with him. I am on the Crime Subcommittee in 
Judiciary, so we have been involved in a lot of the crime 
issues at the Federal level, but we work locally with the local 
police department.
    And you already touched on it, and I have only got a short 
time. But could you briefly talk about the experience that one 
has in the military and to be a successful police officer, what 
is the overlap there?
    Mr. Gulliford. Well, to be successful as a police officer, 
you have to be a leader and a follower. We look for those 
traits, those characteristics in individuals. And when people 
come out of the military, when they are discharged honorably, 
they usually embody everything we are looking for in an 
individual as far as [inaudible] and being able to make the 
right decisions as far as correction services. So it is a very 
easy transition.
    And as far as their success in the police department, it 
depends on the individual and what they mean as success. If 
they want to go up the ranks or if they are looking for a 
certain job assignment inside the police department. Some just 
love being patrol officers, and that is all they want to do is 
to be out there with the individuals and serving at that level. 
So they do not look to go further, which is fine. That is 
absolutely fine.
    So all we need is people who are willing to lead when 
necessary and follow when necessary.
    Mr. Chabot. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Wenstrup. Mr. Johnson, you are now recognized for 5 
minutes.
    Mr. Johnson. Well, thank you, Mr. Chairman, and I wanted to 
comment just briefly on, you know, the comments about resumes 
that might have ``sniper'' listed in skills. If I were an 
employer I would not totally discount that.
    [Laughter.]
    Mr. Johnson. I mean, if you have got a job that requires a 
lot of poise and calm under pressure, you might want to 
consider that. And look at manufacturing, a material manager or 
handler, because a sniper is very skilled at putting the exact 
right product in the exact right spot every time.
    [Laughter.]
    Mr. Johnson. So there are some advantages to that. Mr. 
Sapp, you know, I retired in 1999 and went into the private 
sector, and worked in corporate America as well. One of the 
things that I experienced, and I would just like your 
perspective on it, oftentimes I think, especially in leadership 
positions within corporate America, there tends to be a little 
bit of intimidation with military officers that come out and 
get into leadership or get on the leadership track, because 
corporate America is not always efficient, not always 
effective. And things move kind of slow.
    But you take a young platoon captain or a pilot out of the 
Air Force or whatever, they are used to getting the job done. 
They are mission focused. So there is some intimidation because 
they tend to make people around them either perform better or 
fall by the wayside. Do you see that at all in big companies 
like GE that there might be some reluctance on the part of not 
the hiring folks, but part of the executive team?
    Mr. Sapp. So this is a real area of focus for us at GE 
right now. Actually, just 2 days ago, we spent the better of a 
day talking about how we are growing military careers. And 
actually, this included David Joyce as part of the discussion. 
He is the CEO for GE Aviation.
    And so, what you are touching on right there is, I think, a 
very important issue that we recognize that hiring veteran 
talent, because of their leadership and management dealing with 
crisis management, how they can work through difficult 
situations is, you know, clearly exceptional, but it is 
different. And a large part of our discussion is how do we help 
folks make that transition because, you know, those skills that 
you talked about as being a must-have within the police 
department are a must-have at GE, but they take a different 
style and approach typically. And I would expect it is similar 
to other corporations here where it can be more collaborative 
in terms of how the leadership and, you know, skill works.
    My feeling as a veteran is collaboration is a very active 
part of what I did in my career, you know, as a Member of the 
Air Force. But how we went about it in the community, it is 
something that was a bit different. Personally, what we look at 
in terms of the numbers, they suggest that, you know, within 
GE, that we see very strong representation of military leaders 
continuing to go up the ranks. And so, I feel people are making 
that adjustment, but it takes good, you know, coaching, you 
know, to get there.
    Clearly our senior leadership recognizes, you know, the 
need to bring those folks up. In fact, we just hired our first 
3-star in GE Aviation, and I think it is a direct reflection of 
that.
    Mr. Johnson. Okay. Well, thanks. Have any of you across the 
panel, have any of you had any experience working with the VA's 
Veteran Employment Center or the VEC? And if so, what is your 
opinion of the tool, and how can it be improved? Sergeant 
Gulliford?
    Mr. Sapp. I just sat down with Lisa a couple of days ago 
from the VEC. I think the tool has a potential to be 
outstanding in the fact that it can be a repository for veteran 
applicants. So if we want to hire 250 veterans within aviation 
this year, I am not sure what the exact number is going to be. 
This is a great place for us to go in and start the matching 
process to find veterans applicants and where we have openings. 
So that part of it alone, I think, is a big value.
    Mr. Johnson. Anybody else use the VEC?
    Mr. Carper. I have not personally, no.
    Mr. Johnson. Okay. One final question with the little 
remaining time that I have. One of the biggest issues that we 
have in our military today is the number of deployments. And a 
lot of our Guard and Reserve folks are going on multiple 
deployments over and over and over again. How does your company 
support members of the Guard or the Reserve both during and 
after deployment? And we will start with Sergeant Guilford?
    Mr. Gulliford. Right now, it is in our contract that just 
for being in there, we make sure they have enough time with the 
weekend deployments, just a regular deployment being in the 
National Guard or whatever Reserves that they are. And then 
when they get deployed, all they have to do is provide us with 
the orders that they received, and they can stay gone as long 
as they need to. The individual even gets to make the decision 
if they want their military paycheck or their city paycheck, 
and they usually pick whichever one is higher.
    So they get that, and then once they come back they have, I 
believe, it is 90 days to reclaim their position with the 
police department before they voluntarily vacate.
    Mr. Sapp. We currently have 57 GE employees across the 
company that are deployed right now. We have a similar process 
in terms of making sure that pay, et cetera, is squared away. 
And we have a team of folks within the Vet Network that reach 
out to their families as well as them, send care packages, help 
with the lawn, things like that, while they are deployed.
    Mr. Johnson. I do not want to abuse my time, but Ms. Huff, 
Mr. Carper, do either of you have a comment?
    Mr. Carper. Yeah. On top of the things that have been said, 
the pay differential, 12 weeks, and all that, each individual 
at QTL has a book of business, a customer base that they talk 
to every day. When they deploy, that is handed off to team 
members on their team to take care of the business like it is 
their own. So when they come back off of deployment, they are 
able to get debriefed about what is going on with those 
accounts and resume the activities like they were never gone.
    Mr. Johnson. Okay. Well, thank you. Mr. Chairman, thanks 
for indulging my time. I yield time.
    Mr. Wenstrup. Ms. Huff, did you want to comment as well on 
what you are doing?
    Ms. Huff. I was just going to say we are a smaller 
business, so we do not have any physical policies. But we do 
have one that is getting ready to deploy, so we are working 
with him to make sure that we ensure he works up until he 
leaves. And then another one that is looking to come back that 
is in Kuwait that we are helping to make sure we prepare to 
have his job ready for him when he comes back.
    Mr. Wenstrup. Well, thank you all very much. Mr. Messer, 
you are now recognized for 5 minutes.
    Mr. Messer. Thank you, Mr. Chairman. I want to thank all 
the veterans in this room for your service, all the employers 
for your service in trying to make sure we take care of our 
veterans. Thank the rest of the Members of the panel. Mr. 
Takano came all the way from California. It is great to have 
him here. I am sorry I was late. I came from the far distant 
land of Indiana on my trip over.
    [Laughter.]
    Mr. Messer. I actually started the morning over in Dearborn 
County. This is an important hearing, and obviously the job 
fair today is important as well. I think we have to rethink as 
a country are we doing everything we can to serve our veterans. 
You know, in the world of veteran benefits, it is now coming to 
light that as many as 25 percent of our veterans are not aware 
of the benefits that they are entitled to. And I think we have 
to think about as a Nation what can we do to make sure that at 
least every one who served knows the benefits that they can 
obtain.
    And I think there is a lesson in that really, in the 
conversation today about jobs for veterans as well. I can tell 
you that at least in my district, I talk to employers, and this 
is not so much a question of demand. I mean, I think employers 
by and large understand the benefits that our veterans bring to 
the table. They have got training and skills that add value in 
the marketplace. They understand values of discipline and 
teamwork. As Mr. Carper was mentioning, these are folks that 
are decision-makers. You know, if you are a young person out 
serving in the military, you are making decisions every day. 
And so, they have the skills that employers are looking for.
    But I talk to my employers in my district that when they 
want to go out and hire veterans, they frankly struggle to make 
that connection, to find folks with the skills that they are 
looking for and find them in the marketplace to bring. And I 
guess I really have sort of, and I would just open it up to the 
panel, a question on sort of both halves of that.
    Is that an experience that you share, that you struggle to 
connect with the veterans you are seeking? And then secondly, 
what can we do systemically? Bill mentioned the VEC. What we 
can do systematically to try to deal with that? How could we 
better help you connect with veterans is what I am trying to 
say?
    Ms. Huff. I think for our industry, it is a little bit more 
beneficial just because we have the ability to teach them from 
the ground up. So they can come to us with having the teamwork, 
having the discipline, and those are the major things that we 
are looking for. We can teach them the skill. They just have to 
have the will. So we are very fortunate that we have the 
ability to start them in a program where they just take it and 
run with it, and they are actually very successful and the 
hardest workers that we have in the trades.
    Mr. Messer. Yeah.
    Mr. Sapp. I would say a few things. First, you have to be 
able to reach and connect to the population that is 
transitioning, which is, you know, events like today from noon 
to 2:00.
    Mr. Messer. Yeah.
    Mr. Sapp. How do we find those applicants? The next, really 
is around best practice sharing. Frankly, I think from the 
corporations, I mean, what Dan Knowles and his team is doing 
here to connect all the corporations within southwest Ohio is a 
great example so that we can share best practices. GE has been 
focused on this hire piece for, you know, many years, but 
really over the last 3 to 4, what is the process to get them on 
board. And anything we can do to share that is going to help, 
you know, southwest Ohio and the rest, you know, if that goes 
outside our region obviously to help them as well.
    Mr. Messer. Yeah. Go ahead.
    Mr. Carper. Not every organization is of the size that they 
can have one individual or multiple individuals that work on 
this full-time. But even if you are not of that size, you can 
still be deliberate in your hiring practices of veterans, 
partnering up with the companies, like a lot of them that are 
represented here today, to assist with, you know, sending 
candidate flow in your direction.
    In my experience, you know, when dealing with companies 
that are responsible for helping veterans to find employment, 
they are overly excited when an employer comes to them and says 
``I need help.'' In most cases, I think all you have to do is 
ask.
    Mr. Messer. Yeah. Sergeant.
    Mr. Gulliford. Well, it is nice for us because a lot of the 
things we have been doing so far, going to different military 
bases and veterans career fairs. I get phone calls. I am in 
charge of our recruiting unit right now, so I get phone calls 
and emails on a regular basis asking us to advertise in 
military magazines. I am dealing with one right now. I was 
dealing with it today before I got here actually.
    And I get emails from different bases asking us to come to 
their career fairs, and so we do that. We have four right now 
scheduled for this year alone that were scheduled 8 months ago, 
so we try to reach out. And because we have done that, other 
military bases hear about it, so they actually reach out to us. 
So we do that.
    We have actually received a Best for Vets Award, which not 
a lot of police departments receive at all throughout the 
country. So we do pretty well in that regard. It is just a 
matter of selling us to them.
    Mr. Messer. Well, thank you all again for your service. I 
mean, to me, this is the ultimate win-win. I mean, not only are 
we doing right by our veterans, but these business entities get 
people with the skills and values they need to be successful, 
too. Thanks.
    Mr. Wenstrup. Well, I want to thank this first panel for 
your testimony and answering all our questions, and your 
willingness to serve. You are now excused, and I now invite the 
second and final panel to the witness table.
    On our second panel, we have Mr. Matt Disher with Cintas, 
Mr. Dan Knowles with Veterans Community Alliance, and Mr. Chris 
Newsome with RecruitMilitary.
    I want to thank each of you for being here today, and if we 
can get right into it. Mr. Disher, you are recognized first for 
5 minutes.

                    STATEMENT OF MATT DISHER

    Mr. Disher. Thank you. Good morning, Dr. Wenstrup, 
Representative Takano, Members of the Subcommittee, panel 
Members, and guests. Thank you all for your time and dedication 
to this important topic.
    I'm humbled and honored by my invitation to testify at this 
hearing discussing best practices surrounding engagement and 
employment of military veterans in the workforce. I am 
confident that some of my shared strategies within Cintas will 
act as guidelines and best practices for any organization with 
the same desire of successfully employing veterans.
    My name is Matt Disher, and I lead the 26-year-old national 
military recruiting program at the Cintas Corporation 
headquartered here in Cincinnati, Ohio. I'm also a veteran of 
the Marine Corps, having obtained the rank of sergeant upon my 
honorable discharge.
    The Cintas Corporation is a national leader in uniform 
rental, uniform sales, facility services, first aid and safety, 
and fire protection. We service over 1 million businesses from 
our approximately 400 locations nationwide. At Cintas, we pride 
ourselves on ethics, professionalism, and positive discontent, 
all traits that we commonly share with the ranks of the U.S. 
military. Cintas has been proudly recognized for over a decade 
and by numerous sources as a top employer of armed forces 
servicemembers.
    I would like to start with a few anecdotal statements to 
address what Cintas values in military experience. Today's U.S. 
armed forces are feasibly the most advanced and best educated 
in history. The relative education level is higher in the 
military compared to the public that they serve. Virtually all 
servicemembers endure countless condensed hours of valuable 
training in leadership, communication, history, planning, and 
skill specific or technical trades. This training is frequently 
put to use in practical application and real world scenarios, 
and often without traditional college education.
    It is not uncommon in all generations of military service 
to find a 20- to 25-year-old leading a number of troops in 
complex tasks or dynamic missions, sometimes with little 
guidance, oversight, or situational information. To add these 
young men and women who are regularly operating some of the 
most advanced technologies in a no-frill setting, making them 
literally the topic of which books are written, movies filmed, 
and legends made.
    Because of their scope of duty, servicemembers become well 
traveled, exposed to various cultures, and physically and 
emotionally equipped to handle virtually any situation placed 
before them. These are commonly misinterpreted traits in 
corporate America, but arguably desired by all. At Cintas, 
these traits are necessary, needed, and expressly sought.
    Within Cintas and likely in other organizations that 
successfully operate such military programs, one element is 
generally agreed upon as a starting point and launch pad for 
success. That is executive support and sponsorship. These 
blueprints must be presented and supported from the top tier of 
an organization, written into policy or practice, and 
correlated with performance goals and participation; thus, 
becoming a fixture in a company's culture. Without the 
appropriate culture-based orientation, the organization will 
wholly struggle to find value, and the public, particularly the 
military population, will have trouble recognizing it.
    The proven supplement for this corporate cultural 
implementation and a long practice staple at Cintas is an 
internal resource that consists of a dedicated team, budget, 
and resources meant to engage the current servicemembers, 
veterans-related entities, and service organizations. At 
Cintas, my team is well versed on military backgrounds, common 
struggles, and frequent pain points for the job seeker and 
hiring manager alike.
    We also stay connected through current military-related 
events, political compliance happenings, and charitable 
organizations to aid us with future processes and involvement. 
Concurrently, the military and veteran population, 
respectively, consists of complex and well-connected 
associations, and should be regarded as the fraternal 
institutions they are, which is particularly useful in terms of 
outreach.
    Most importantly, this team acts as a direct conduit 
between the military veteran applicant and the career 
opportunity's hiring managers and leadership within Cintas. 
This minimizes the chance of the applicant being overlooked in 
a misinterpretation of military experience, and from the 
candidate becoming lost in an application process that may 
involve hundreds of thousands of other traditional applicants.
    At Cintas, we have an established medium of communication 
which allows the military applicant to directly contact the 
military recruiting team during their application process via 
email or professional media, by which method we are able to 
track application and interview progress and advocate for the 
applicant via screening.
    Following the recruitment or application process, we also 
implement educational collateral for managers and prospective 
leaders of military staff. Our team is the primary facilitator 
of such education and acts as the champion for these dedicated 
efforts. The education familiarization of leaders to military 
experience is imperative to the hiring, onboarding, and long-
term success of the current or former servicemember. Similarly, 
setting expectations and creating mentorship opportunities 
among the veteran staff is inherently valuable. It is also our 
intention to continue to cultivate and improve these efforts 
which will lead to greater improvement in hiring and retention 
numbers among veterans.
    To summarize, much of our success in this topic comes from 
the true embodiment, adoption, and education of these efforts 
on a national level. Similar to a military unit, in the absence 
of ongoing guidance from the military program at Cintas, local 
managers will carry out these effort autonomously. It is this 
type of self-initiation and execution that Cintas exemplifies 
and that a successful program should strive for.
    We proudly share best practices, solid resources, and even 
talent with other organizations should they wish to establish 
their own similar efforts. And I am happy to answer any 
questions. Thank you.

    [The prepared statement of Matt Disher appears in the 
Appendix]

    Mr. Wenstrup. Well, thank you very much.
    Mr. Knowles, you are now recognized for 5 minutes.

                    STATEMENT OF DAN KNOWLES

    Mr. Knowles. Mr. Chairman and distinguished gentlemen of 
the panel, thank you for inviting me to be here today on behalf 
of the Tristate Veterans Community Alliance and the veterans, 
and the families that we seek to serve in our region. As a 7-
year Army veteran and the son of a career and Vietnam veteran, 
I am honored and humbled by the opportunity to offer some 
perspective on some of the employment issues that veterans 
face, issues important to them and to the strength and the 
health of our community.
    I would like to start by recognizing the extraordinary 
strength and resiliency of the young men and women who are 
serving today or have served our country in the military. We 
also must recognize the sacrifice of the families: the parents 
who have raised and seen their sons and daughters, and the 
spouses who are asked to follow their loved ones to bases and 
posts throughout the world. In many cases they have put their 
education and careers on hold and simply find what work they 
can after each move. They have raised young children along for 
long periods of time when their servicemember is deployed. And 
these families deserve our respect as well and our help.
    Many of our soldiers, sailors, marines, and airmen have 
returned from duty, put down their weapons, and turned in their 
uniforms for the opportunity to benefit from the freedoms for 
which they fought. But they find that the fight, a different 
fight for sure, but a fight nevertheless, must still be fought. 
And that is the struggle to transition and successfully compete 
for jobs, for jobs, for education, for the health care benefits 
that they deserve.
    Why do they struggle? How can we honor them for the service 
that they have so faithfully given us? They do not want a 
handout. They simply want to have their knowledge, their 
skills, their maturity, their willingness to work hard and 
achieve worthy goals acknowledged and be considered as 
qualifications for the chance to serve again in the workforce.
    Why do they struggle? They struggle not for lack of 
empathy, respect, or support of the communities, but because 
many of the systems that have been created to help them have 
become nightmares of bureaucracy and inefficiency. 
Organizations and programs that have been created specifically 
to serve them have become bloated and are often redundant, 
managed by civil servants from afar.
    The services they offer shout for and compete with other 
services of other organizations equally as inefficient and 
distant from the actual needs of those they try to serve. And 
this is not just the large Federal- and State-run service 
agencies. This extends to the plethora of often well-meaning, 
but poorly informed and scarcely resourced local agencies, 
programs, and initiatives that each community offers. This is 
the well-named sea of good will that is gratifying from a 
distance, but confusing and overwhelming when you are actually 
trying to wade through it.
    How can we best help them? I would suggest that it is not 
in trying to do more, but perhaps in doing less, but more 
effectively. There is no shortage of resources available to 
help our veterans. As any battlefield strategist will tell you, 
success comes from being able to apply overwhelming force and 
firepower at the decisive place and point in time to break 
through the enemy's defenses and achieve the given objective. 
This must also apply to the battle we face in getting veterans 
hired, trained, and retained in the civilian workforce.
    This Nation has the resources. That is, it has the will and 
it has the money to succeed. But it is failing in application 
of those resources. By trying to channel them through Federal 
and State bureaucracies instead of getting them into the 
communities, the communities that, let's face it, have the most 
to gain by successfully employing the veterans, and the most to 
lose in having to manage the consequences of veteran 
unemployment through local health care, homelessness, substance 
abuse, law enforcement, and emergency service agencies. It's 
the communities that are bearing that burden to a large extent.
    Today's system of employment support, through the 
government and military services, is confusing for veterans, it 
is frustrating for employers, and it is confounding for the 
service providers on the ground between the two trying to 
facilitate and support those connections. Our system must be 
streamlined to get it to work. There must be less programming 
and oversight from the top, more quality communication and 
interaction with employers directly, and better coordination 
between the service providers within a given community.
    This will be helpful in four critical areas. Number one, 
better preparation of those leaving the military via more 
effective training conducted in collaboration with those from 
the community that have the current real world experience to 
know what is important. Better preparation of employers who 
have to find, hire, onboard, and retain those veteran 
employees. More realistic expectations of servicemembers who 
will be competing for jobs, and of companies who want to offer 
them jobs, and the HR professionals who have to match those 
two. And finally, more effective interaction and support from 
the community agencies to keep veterans gainfully and happily 
employed and contributing to the broader health of their 
communities.
    This is possible. It can be done. And it must be done if we 
are going to get more of our veterans and their skills to work, 
and increase our collective competiveness.
    Thank you for your continued service to our country and 
this community, and in being here to listen and hopefully act 
on what you've learned.
    [Applause.]

    [The prepared statement of Dan Knowles appears in the 
Appendix]

    Mr. Wenstrup. Thank you, and I could not agree with you 
more when you talk about the bureaucracy that ends up being 
involved and making it more and more challenging. And we will 
talk more about that when we go to the questions.
    Mr. Newsome, you are now recognized.

                   STATEMENT OF CHRIS NEWSOME

    Mr. Newsome. Thank you, Congressman Wenstrup. Members of 
the Committee, Representatives, and respective guests, first of 
all, I thank you for bringing this panel and this collective 
group together to address an issue that is of the utmost 
importance on a national scale.
    Best practices in veteran hiring not only affects the 
veteran and their family, but also the bottom-line success of 
any organization that's engaged in such an endeavor. Beyond 
being an inherently good thing to incorporate in any HR 
process, veteran hiring simply makes good business sense. Those 
who recognize this and are equally willing to invest dedicated 
efforts, personnel, and resources to this initiative, stand to 
great augment, and enhance their workforce while naturally 
strengthening their company.
    I'm here today as a veteran myself. I served with the 82nd 
Airborne as an infantry paratrooper, serving multiple tour of 
duty. I've been that job-seeking military veteran. I'm here 
today representing RecruitMilitary. We are a veteran-owned and 
operated full-service military to civilian recruiting firm that 
has been championing the veteran community and helping to 
bridge the gap between transitioning personnel, the veteran 
population, and corporate American since 1998.
    We're headquartered right here in Loveland, Ohio. We offer 
companies the ability and the associated resources necessary to 
effectively connect with the veteran population. We've 
conducted over 800 veteran career fairs across the country 
since 2006, connecting over 430,000 job-seeking military men 
and women with over 24,000 organizations.
    Beyond the scope of our career fairs, we offer our 
corporate partners the ability to access the Nation's largest 
sole-purpose job-seeking veteran database just shy of a million 
candidates, as well as capturing the attention of transitioning 
population through our on-based magazine available to our 
partners who wish to augment their branding efforts. While 
working with a majority of the Fortune 500 and thousands of 
organizations throughout the country, we have a unique 
perspective on what works best for companies, and the needed 
tools to build these strategies from the ground up.
    Success is driven by acknowledging and effectively 
leveraging the immense talent and value stemming from our armed 
services. However, to understand best practices in veteran 
hiring within the veteran community, it's imperative that we 
understand what the veteran is. We are yesterday's, today's, 
and tomorrow's leaders. The Department of Defense has invested 
millions of dollars into each of us to ensure that we are 
experts within the realm of which we serve. We are proud, 
hardworking patriots who seek to take the bountiful skills and 
virtues taught to us in the service, and apply them in the 
civilian sector to enhance ourselves and the organizations that 
we represent. We are the top tier candidate pool outperforming 
our peers.
    Each organization must engage in this effort in their own 
meaningful way. There is no one-size-fits-all, no all-
encompassing solution to attaining a successful veteran hiring 
initiative. However, there are general guidelines that can be 
universally applied to ensure a successful starting point is 
established.
    Each organization brings unique appeal to the job seeker, 
and each organization has a unique personnel need. In some 
cases, understanding certain military occupational specialties 
and MOS code, a servicemember's job is an appropriate fit due 
to the synonymous job descriptions. In other cases, their 
leadership experience and intangible strengths are going to be 
more important.
    A majority of the veteran population also has comprehensive 
civilian work experience and many have obtained a formal 
education upon departing the service. It's a very fluid dynamic 
that requires non-passive techniques that put a company's name 
and brand on the forefront of the veteran hiring discussion.
    An organization has to ask a series of questions. Why do I 
value the veteran population? Why is my company a good company 
to work for? Why do I consider my company to be a great place 
for a veteran to explore a career path? What are my company's 
greatest needs? What are a veteran's greatest strengths? And 
where do I have an immediate need for self-driven leadership 
oriented employees? Once these answers are clear, a dedicated 
veteran hiring initiative can be incorporated into the overall 
organizational talent and acquisition process. One may require 
a branding strategy on top of a proactive engagement to include 
career fairs, social media, and community outreach to ensure 
that a company is synonymous with veteran hiring.
    It's important to conduct an inventory of your existing 
veteran workforce, take a special interest in their experience 
and their notion as to why your company is a great fit for he 
or she personally, use this information in your language and 
overall approach to the job-seeking veteran population.
    The organizations who tend to have a higher success rate 
are those who can speak to this and even incorporate current 
veteran employees into their recruiting process. Having a 
veteran on your recruiting team is essentially a veteran 
endorsement. It's one veteran telling another veteran that this 
is a good company to work for.
    Proactive engagement is key. Tapping into the veteran 
population is not as easy as saying we're veteran friendly. We 
see that far too often. You can never be passive. And the days 
of checking off the blocks and strictly relying on job postings 
is past. It's too passive. Understanding this population's true 
value and potential will drive a company's ability to express 
their desire to hire them.
    This topic requires more time and words than I'm allotted 
for this particular segment, so I hope my statement will 
generate a meaningful dialogue.

    [The prepared statement of Chris Newsome appears in the 
Appendix]

    Mr. Wenstrup. Well, thank you very much, and I want to 
thank each of you not only for your service, but for the 
tremendous insight that you brought forward just in your brief 
testimonies today. And I now recognize myself for 5 minutes.
    You know, I think you touched on some things we find too 
often in the system, that when you get out of the military, 
there is lack of access and lack of choice, and it is 
frustrating and very difficult. And I know there are people in 
this room here, I know firsthand that they have had to endure 
some of those challenges that come with that.
    There are many changes that will take place within the VA. 
There is a culture that needs to be changed because we are 
there, they are there, to serve the veteran. And while there 
are many good people in that system that want to do all that 
they can on behalf of the veteran, I am afraid that we find, 
too often, that we have people there that are self-serving, 
which goes directly against the life of those that serve in the 
military who are there to serve for others.
    You mentioned something, and I want to talk about 
transition and preparedness when you leave the military. For 
example, when I finished my surgical residency, nobody told me 
how to run a business and start a practice, you know. You knew 
how to do your medicine. You knew how to do that, but you did 
not know really what you had to do next, and it took some 
education on that.
    We have the Transition Assistance Program out there, and we 
have tried to make it better. You guys know what it is like 
when you are getting out. You often just want to get out. So 
how do you successfully really reach people and say, this is 
what you can do? It is an open book test because you want to 
make sure they have the information. And that is one of the 
things that we are trying desperately to do to make that 
transition, not just, hey, here is your service record, your 
DD-214, good luck, see you later. We have got to make that 
transition meaningful.
    So my question to each of you is, what is the one thing 
that you might suggest that our troops do or have before 
leaving military service to ensure that they have an increased 
chance of success in the civilian sector?
    Mr. Newsome. I will go ahead and start. Thank you for the 
question. I would say one of the biggest shortcomings could be, 
and this is biased because it is from my own personal 
experience having gone through ACAP not more than 10 years ago.
    When an individual, especially somebody in their early to 
mid-20s, is going through the transition having gotten off of 
active duty, possibly getting home from multiple deployments, 
you are not in the proper mindset to actually focus and drink 
in the information that is being provided to you. I know it is 
very easy to blame the TAP and ACAP classes as, you know, 
having nothing but shortcomings as far as the information that 
they are disseminating. There is work that needs to be done in 
that regard because while there are SOPs, it is not united.
    So what I went through with the ACAP process at Fort Bragg, 
North Carolina is going to be different from what one of my 
counterparts went through at Fort Irwin, California. The 
classes and the resources are not always the same, so bringing 
that together under one umbrella and making it more unanimous 
and congruent is going to be incredibly helpful.
    The military has started allowing servicemen and women to 
start the transition process a lot earlier now so they can 
start to go to ACAP classes as far out as a year in advance in 
some cases. And being able to start that process that early, 
can help to start winding down the mind, if you will.
    Again, myself, I was interested in just coming home. I was 
23 years old. I had gotten back from my 3rd deployment. I could 
not focus. So while I was being given nothing but valuable 
information, I could not hear it. So I would say we need to 
focus a little bit more on making sure that dissemination of 
information is being listened to by the individual.
    Mr. Wenstrup. And maybe start it sooner when you are not 
thinking about--
    Mr. Newsome. Absolutely, as soon as possible.
    Mr. Wenstrup [continued].--I want to get on that plane and 
get home.
    Mr. Newsome. Exactly.
    Mr. Wenstrup. Mr. Knowles?
    Mr. Knowles. Thank you. I totally agree with most 
everything Chris has said. The one thing that I add to that is 
that I think there needs to be an injection of realism, what 
the real world outside the military culture looks like as they 
transition. What we are finding is, many veterans come out of 
the military with either very inflated expectations about the 
type of job and position they are going to have or a lot of 
hesitancy because they do not know how in the world they are 
going to translate the things they have been asked to do for 
the last 4 or 5, 10 years into something that is going to be 
meaningful to an employer.
    And I think connecting them with somebody who has recently 
transitioned and been through that success in finding a job and 
finding a new career in the military is going to be one of the 
most important things that they can listen to and gain a more 
realistic expectation of what has to happen.
    Mr. Wenstrup. Thank you. Mr. Disher?
    Mr. Disher. All good information. I think that we are all 
on the same plane here. The three of us talk quite frequently 
about best practices as well. Something I might like to add, 
and I will use myself as an example of this. I was a combat 
engineer in the Marines. We were talking about the sniper 
before. Mr. Johnson made his comments as well about how that 
would be excellent for the employer to engage that person if 
they would understand what that sniper has been through.
    In my experience, I left the Marine Corps at 23 years old, 
give or take. I was a combat engineer. My job was to blow 
things up and shoot guns. And so, naturally I figured I would 
come out and put my application in somewhere, and somebody 
would hire me. Well apparently, nobody wants a person that can 
blow things up and shoot guns out here in corporate America.
    So one of the things I lacked, but this is probably 
happening with today's generation of young professionals 
leaving the military, is the network. Our college-aged peers 
during their college time, for example, are educated. They are 
brought up to speed on how to have these conversations and may 
be what to expect when they leave college.
    In the military, you are taught for 4 years how to be in 
the military, and then there is maybe a 1-week process, a 
couple of weeks of a process that teaches you how to get out of 
the military, and not much of that process is really based 
around how to have these conversations, and how I can with you, 
or you, or anybody else outside of the military.
    I equate it to kind of being in a box with all of your 
friends for a number of years. You are in that box, and you can 
see people on the outside, but you largely do not communicate 
with them. And then, one day they open that box and say go 
ahead and figure out the rest of your life.
    So I think the biggest thing is engaging that network or 
teaching or educating servicemembers on how to engage that 
network, how to connect with the outside world prior to getting 
out instead of waiting until they get home as I think some of 
us do quite frequently.
    Mr. Wenstrup. Well, thank you very much. I now recognize 
Mr. Takano for 5 minutes.
    Mr. Takano. Thank you, and I appreciate the Chairman's 
interest in starting this process earlier in a soldier's life 
cycle. I, too, agree that that is a focus we should have. But 
it often comes in conflict with the Department of Defense's 
emphasis on the mission, and the commander's readiness to take 
on another aspect of that command. And we are kind of separated 
from the Veterans Department and DoD in trying to align, I 
think, this interest.
    Actually, TAP is a huge improvement from what there used to 
be. There used to be no TAP at all. And so, now that we are 
having discussions about how we make TAP effective, that we 
need to go beyond that. I think this is a very interesting 
conversation, a very interesting line of inquiry.
    I want to ask a quick question. Mr. Newsome, Mr. 
Knowledges, Mr. Disher, what percentage would you say of our 
military servicemembers when they transition out have issues 
with, say, remediation, where they want to seek more education 
when they have to go back and bone up on their math, or bone up 
on their English skills or writing skills. Is this a 
significant issues, do you think?
    Mr. Newsome. I think that is going to be very dependent on 
the individual and what their background is. Are they getting--
    Mr. Takano. I realize that, but in general, do our 
transitioning soldiers, especially our younger ones, do they 
encounter this as maybe a barrier in terms of being able to get 
more training or, say, be able to get a higher education? We 
market our volunteer forces with educational benefits. That is 
one of our prime recruiting tools. Would you agree with me on 
that? And that I am just wondering how many of them are 
actually coming out of the military ready to engage higher ed.
    Mr. Newsome. A good portion. The education benefits that 
are available to your everyday serviceman and woman are as good 
as they have been since World War II. You know, having 
personally used it, I did have to brush up. I had been out of 
the classroom environment for over 4 years, so I started at 
Cincinnati State, worked my way up to the curriculum at UC, and 
then transferred over to UC. So I would not necessarily call it 
a barrier, though, but it is something that we have to endure.
    Mr. Takano. Some of our former military servicemen may be 
from lower income backgrounds, many from foster care. My 
understanding is that military benefits are not available for 
those who want to get remediation, of the housing benefits, for 
example. You have got to be enrolled in full-time credits. So I 
am wondering, I mean, it might not have been your issue, but I 
am just trying to get a handle on how many this is an issue 
for.
    Mr. Disher. I cannot reference an exact percentage, but to 
talk about the transitioning population in the military, the 
vast majority are enlisted. And I would also say that the vast 
majority of those people getting out on an annual basis are 
without higher education in many cases. Traditional higher 
education, I might note. They have the military education.
    I think one of the hardest parts of the transition, and I 
do not know if this is going to answer your question. I hope 
that it alludes to it, is that we typically come out of the 
military, let us say, after 4, 6, 8, 10 years, and we have 
families in some cases. We have to put our lives back together, 
and we are trying to go to school while trying to raise a 
family and pay the bills. And for anybody trying to attend 
school full-time, the GI bill, the post-9/11 GI bill is 
exceptional compared to what it used to be, but it still does 
not cover all the aspects of--
    Mr. Takano. So the flexibility involved. I mean, many of 
our soldiers and many of our servicemembers as consumers of 
higher ed may not be as discerning as they ought to be, and are 
marketed to based on convenience. And traditional higher ed is 
not necessarily adapted them, but they are often getting 
themselves into programs which may not truly have advantageous 
for them. They are using up their benefits, and then find out 
that they cannot really get employment with the certificate 
they thought would help. I just recently authored a bill that 
unanimously went through that would require that programs lead 
to a certification, a State certification.
    But there has been, you know, concern on my part that we 
have generous benefits, but often not wisely used. And the 
issue of people not even knowing about it, but if you know 
about it, the issue of trying to use them, well I think is an 
issue.
    Mr. Disher. I think just to add to your point there that 
the educational process in higher education, it does cater to 
largely the traditional student. And so, then the person who 
has other priorities who has a family or has a full-time job 
because they have to pay said bills.
    Mr. Takano. So we have got to look at higher education, 
especially the State schools, as looking at adjusting as well, 
becoming more flexible.
    Mr. Disher. Absolutely.
    Mr. Takano. Not just looking at just higher ed, traditional 
higher ed. I also believe in training and entrepreneurship, and 
that is a whole other topic.
    But my time has run out, and I yield back.
    Mr. Wenstrup. Thank you. Mr. Johnson, you are recognized 
for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. You talked a little 
bit about, you know, the perception of veterans within a 
company. Mr. Disher, can you expand a little bit on how you 
believe hiring veterans and understanding members of the 
military better, how they are trained, the discipline, the 
commitment, how that must be ingrained in a company's culture? 
And how did Cintas achieve that?
    Mr. Disher. I would say to start, I will kind of work 
backwards on your question here. Cintas achieved this long 
before I was in my current seat. So our founder, Richard 
Farmer, was actually a Marine officer as well. The culture of 
our company and the actual operations of our company require 
people at the highest levels even to jump in and get their 
hands dirty. And I think that we could argue, especially those 
of us who have a military background, we know that that is 
exactly what the military embodies, is that, when something 
needs to be done, when a decision needs to be made, or, you 
know, in battle if somebody needs to jump into the fight, 
everybody becomes a combatant.
    I would say at Cintas and the other companies that fully 
embrace this, it goes beyond the feel good measure of hiring 
military because it is the right thing to do, and it moves into 
the process of having the right people on the line to do the 
job, which becomes profitable. Again, to use those cliches, we 
have people that show up to work on time, who understand how to 
handle tough situations, who understand how to manage people.
    And so, I think that we fully embody that. I think any 
company that would like to engage, that fully understands the 
value of somebody who has a military background would like to 
engage them, they are going to have to embody these traits as 
well, and fully understand what the veteran has done in order 
to make those different traits profitable within their 
organizations.
    Mr. Johnson. When your founder is a marine, that is pretty 
easy to get to.
    Mr. Disher. It is. It makes things a lot easier.
    Mr. Johnson. Absolutely. Absolutely. Was he a sniper?
    [Laughter.]
    Mr. Disher. Not that I am aware of, sir.
    Mr. Johnson. I bet he could shoot.
    Mr. Disher. Probably.
    Mr. Johnson. Mr. Knowles, can you go a little bit more into 
detail about the training you provide to HR supervisors and 
first line recruiters about hiring veterans?
    Mr. Knowles. Certainly. Thank you for asking. We have a 
program--we call it our Veteran Employment Transition 
Assistance Program--that we have developed specifically to 
address what we saw as a gap in the hiring process. There are 
many, many opportunities and initiatives to train veterans on 
how to write resumes, and interview, and go through that 
process. There are relatively few, if any, community-based 
training programs for people and the employers.
    The struggle that we find when we talk to employers is 
that, first of all, I do not understand the darn resume. There 
are way too many acronyms. There is a lot of jargon. And, you 
know, I do not really know what to do with that. What questions 
do I ask? So we talk about that. We train them on that. We talk 
about how to conduct an interview in a way that asks questions 
that they need to have answered for their interview process, 
but using the right terminology and the understanding of what 
the veteran has been through.
    For example, rather than the standard question of asking, 
tell me about a time when you helped your department improve a 
difficult goal, we say change that word ``department'' to 
``unit,'' change that word ``goal'' to ``mission.'' And you are 
going to get the same information you need, but in a more 
contextually relevant way. So those are two of the things that 
we do, and we actually practice that and train that.
    Mr. Johnson. Thank you. Mr. Newsome, what is the number one 
thing you tell employers to do when they come to you and want 
to set up a veterans hiring program? And before you answer, let 
me encourage you to put close to the top of your list, do not 
discount snipers.
    [Laughter.]
    Mr. Newsome. It is very important to have an open mind when 
you are looking at a military servicemember. When you are 
looking at a resume, as Dan mentioned, there is a lot of jargon 
out there. Corporate America has a tendency to get tunnel 
vision and stigmatize what a veteran is or what a veteran is 
capable of, and essentially pigeonholing or limiting that 
individual to, you know, to having to access to a whole slew of 
job categories.
    So a company really has to break down and understand that 
the veteran community is just as fluid, flexible, and dynamic 
as their civilian counterparts, and are just as capable of 
anything else. There are thousands of MOSs, so literally any 
job that exists within the civilian sector, there is a 
counterpart to that within the military.
    Mr. Johnson. Mr. Chairman, I would submit that, too, and 
something I think all of our employers could go to school on. 
You know, military members are experts in multitasking, you 
know. You might have an MOS of this, but you do a lot of 
different things especially as you work your way up into 
leadership roles within the military. So pigeonholing a veteran 
and saying, well, you know, all you knew how to do was drive a 
truck, that is totally inaccurate.
    Mr. Wenstrup. I agree.
    Mr. Johnson. Mr. Chairman, I yield back.
    Mr. Wenstrup. Thank you. And for those who do not know, 
``MOS'' is your military occupational specialty, and that is 
what we are referring to. And I would agree--
    Mr. Johnson. Sniper is an ``MOA.''
    Mr. Wenstrup. That is right. That is right.
    [Laughter.]
    Mr. Wenstrup. And I want to apologize to my most senior 
colleague here as I inadvertently broke rank and went to Mr. 
Jonson first. So I now recognize Mr. Chabot.
    Mr. Johnson. Air Force has its privileges, Mr. Chairman.
    [Laughter.]
    Mr. Chabot. Thank you very much. Well, I realize I had not 
used the term ``sniper'' yet, so there, ``sniper.''
    [Laughter.]
    Mr. Chabot. I feel a little left out, so it does not have 
anything to do with what I am going to talk about, but I 
thought I should at least mention it.
    Most of the emphasis thus far has been, and I think 
appropriately so, linking up our veterans with a good company, 
a good job, at some point and how do we do that. As Chairman of 
the House Small Business Committee, there is one other area 
that I probably should mention here. Some folks I think coming 
out want to create their own job, and they are entrepreneurs, 
and they want to start up their own company.
    For example, Cintas, I think the current CEO, Scott 
Farmer's great grandfather started the company literally going 
from factory to factory and collecting old rags, soiled rags, 
taking them home, washing them, and then turned that into a 
company, and hire a lot of folks. And then it was towels, and 
then it was uniforms. And they are one of our most prominent 
companies not only in this area, but nationally now. And Apple, 
for example, literally started in Steve Jobs' parents' garage, 
you know. And until I think recently, they were the largest 
profit-making company I think in the world. I think they are 
number two after Exxon maybe. But nonetheless, they started out 
as entrepreneurs.
    And so, for those veterans that might like to start their 
own company, and probably, Mr. Newsome and Mr. Knowles, you 
could probably be the best ones about this, what should we be 
thinking about? Do you hear this from folks that you associate 
with who perhaps rather than want to work for somebody else, 
want to start up their own company? Is there more we ought to 
be doing? Is there more we can do? Either one of you or both.
    Mr. Knowles. Sure, I will go. That is a great question, and 
unfortunately I do not have the specific statistics on how many 
veterans as they get out want to start their own business. But 
I would say that they have some significant advantages and some 
disadvantages. Having started up my own business and run it, I 
can speak to that from that perspective.
    The advantage they is, just as Mr. Johnson recognized, they 
are tremendous multitaskers. They are willing to jump in and 
get what needs to be done regardless of the task. They do not 
niche themselves and I am the strategist, or I am the, you 
know, the product expert. And that is a huge advantage. They 
also are willing to put as much time as it takes to get the 
mission done. That is what they are trained to do. That is part 
of their culture.
    The disadvantage is there are specific skills when it comes 
to financial acumen and business skills that they most likely 
have not been exposed to in the military. And I think that is 
the area where we can provide help to them by linking them up 
with perhaps other veteran entrepreneurs who have been down 
that path, and find a way within the community to give them a 
mentor group or perhaps an advisory board that helps them move 
forward with their dream, and make sure that they are actually 
working on something that is not big on passion, but short on 
generating a living, but can do both.
    And there are several great organizations within the 
Cincinnati community specifically that helps entrepreneurs 
validate their ideas, and set up, and get the initial funding 
they need on that. I am not aware of any that specifically 
focus that effort on veterans trying to make that transition, 
so perhaps that is--
    Mr. Chabot. Thank you. Mr. Newsome, would you want to 
comment?
    Mr. Newsome. I think Dan is on point, and just to echo some 
of the things that he said. Some of these resources do exist. 
As with many things related to resources and military veterans, 
it is a matter of making sure that that information is being 
disseminated to them, and they are taking that information and 
processing it. So making that readily available for them is 
going to be key in that regard.
    We need to identify what form of entrepreneurial mindset 
does this individual have? Do they have an idea that they want 
to start from scratch, like a Cintas, or do they want to look 
into a franchise? RecruitMilitary works with a handful of 
franchises that finds immense value in the entrepreneurial 
mindset that the military is naturally producing. These are 
self-driven leaders, so they are entrepreneurial by nature. 
Some of them just do not know it.
    Having local business mentors, business leader mentors, I 
think would be key in that regard because that is firsthand 
experience, handholding that can be conducted. As far as how to 
implement that on a governmental level, I do not know. I do not 
even know that we even necessarily have to cross that bridge. 
If we can just encourage local organizations, you know, 
corporate America throughout the Nation to buy into something 
like that, I think that would be a pretty easy solution to that 
issue.
    Mr. Chabot. Thank you. Mr. Chairman, if I could just 
mention one final thing. We did pass some legislation that I 
have introduced in the Small Business Committee recently. It is 
called the Veterans Entrepreneurship Act. And what it does if 
you are trying to get a loan through the SBA, the Small 
Business Administration, to start up a company or to expand a 
company and create jobs and that sort of thing, there is a 
filing fee. It is generally around $1,500 to try to get the 
loan. We waived it for veterans, and it was bipartisan, so we 
had both Republicans and Democrats working together. It passed, 
and the President signed it into law last year. So veterans get 
a break if they want to start up a business. And they can 
contact our offices about that, and we could get you the 
information if you are interested.
    And then finally, ``snipers.'' Thank you.
    [Laughter.]
    Mr. Wenstrup. Mr. Messer, you are recognized for 5 minutes.
    Mr. Messer. Thank you, Mr. Chairman. I want to thank you 
all again for your service to your country, and I want to thank 
you for your service now, which is equally important to the 
veterans that you help transition into the workplace.
    You know, as we think about the conversation today, it 
strikes me that our challenges that we face are less challenges 
of intention and more challenges of results. As Mr. Knowles 
mentioned, we have a sea of goodwill demonstrating our 
intentions, and yet when you talk to employers, they feel they 
cannot connect with the veterans that they seek. When you talk 
to veterans, they feel like they cannot find the opportunities 
that they know if they could just find it, they would be a 
great fit for.
    I was very struck, Mr. Knowles, by your comment about we 
have got to try to focus and figure out how we do less better, 
how we do less and get potentially better results. I think we 
have got to think outside the box. I appreciated Mr. Takano's 
comments earlier about one of the things we can do is provide 
better flexibility to veterans in the education benefits they 
receive. I think, by the way, that is a challenge we face 
throughout our Federal education policies. How can we better 
match those programs to real opportunities in the workplace? 
And for everybody, that is not, you know, going to four 
homecomings, carrying a backpack around for 4 years and going 
to a college. I think that is one approach hopefully we can 
work on.
    But I want to start with Mr. Knowles. You sort of 
challenged us with the point that we need to rethink these 
programs. And you have suggested a couple, but I just want to 
give you a little time to talk about what is one or two things 
that we can do, take the resources we have, and better utilize 
them to match employees with those veterans out in the 
workforce?
    Mr. Knowles. Well, thank you for the opportunity and for 
asking that question. There are many, many more opportunities 
than we certainly have the time to discuss at this hearing. But 
I think that several of them stem from everybody trying to do 
good, but not really knowing how to do it. And it is incredibly 
difficult, as I am sure you can attest to much more easily than 
I can, to sit up on the mountain and look down in the valley 
and say, I want to help that person, I want to help this group, 
and try to get that help channeled to the right person at the 
right time to make a difference to matters in their lives.
    And, you know, I think because that is difficult to do, it 
leads many organizations to try and say, well, you know, I do 
not know if that specific program is going to work the way I 
want it to, but I am going to bracket it with these other 
programs that, you know, if the collective impact of all these 
different four, five, or six different initiatives can help, 
then, gosh, I have got to be doing something right, and 
understand that logic.
    The problem is, you have got all these other people down in 
the mountain and down in the valley that are trying to work on 
the ground with the people that are struggling through that 
effort. And every time they turn around, the person they are 
trying to help is starting to say, oh, wait a minute, I got 
this shiny thing over here that somebody just told me about, or 
I got this new program over here that somebody said they could 
give me the money to make my rent payment this month, so I will 
go running over there.
    And what happens is sometimes it works, sometimes it does 
not. But you are disenfranchising a lot of those people that 
are really in a much better position to help, you know. I mean, 
I have heard several comments this morning about the VA, and I 
know they are struggling. I have to say personally, I know many 
people in our local VA who are just unbelievably passionate and 
focused, and they are trying to do the right thing every single 
time. It is not all of them unfortunately.
    But I think that is an organization that perhaps suffers a 
little bit from this in trying to deviate or wrap the things 
that they need to do in their three core missions around 
providing great medical support and providing benefits. And 
instead, they are bracketing those into education and different 
programs.
    Mr. Messer. Yes. Well, I appreciate that. I would just make 
the observation, it seems to me one of the challenges is when 
we try to create a one-size-fits-all program, I think providing 
more flexibility to the veteran, and using existing resources 
in a way that they see best meets their needs, and then, 
frankly, trying to provide appropriate incentives for employers 
so that it is in their best interest to try to seek these folks 
out and let the market in the middle meet the two between, 
seems to be an approach that makes the most sense to me.
    It is important that we get it right. I think we have a 
moral obligation to stand by our veterans, and not only 
appreciate them while they are serving, but help them 
transition into civilian life. And I appreciate the opportunity 
to work on those issues today. Thank you.
    Mr. Wenstrup. Thank you. I want to thank you, and I want to 
thank all the panel Members today for your testimony, and 
taking the questions, and sharing your insights. And I also 
want to thank those here at Anderson Township Civic Center for 
their hospitality and hosting us today. Thank you for taking 
time from your busy schedules not only to be here today, but 
what you are doing each and every day. And I thank all of you 
in the gallery as well for taking the time to be here, to be 
part of this process.
    I think that we do it best at the local level when people 
like these gentlemen are face to face with a veteran trying to 
help them proceed in life, and to advance, and get themselves 
going in so many ways because they bring so much to the table. 
But I do thank all of you for being here.
    Directly following this hearing, we will be holding a medal 
ceremony where I have the honor to present Mr. Harry Fryer, a 
World War II veteran, with several medals that he earned from 
his service to our Nation. So if anyone would like to stay for 
that ceremony and thank him for his service, you are more than 
welcome.
    And as you all know very well, a job fair will be conducted 
once we adjourned where over 40 employers will be present. And 
I encourage you all to go and meet with the employers following 
this hearing as it is a great opportunity to interact.
    Finally, I ask unanimous consent that all Members have 5 
legislative days in which to revise and extend their remarks 
and include any extraneous material on today's hearing.
    Hearing no objection, so ordered.
    Mr. Wenstrup. This hearing is adjourned. Thank you.

    [Whereupon, at 11:56 a.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

          Prepared Statement of Sergeant Dominic F. Gulliford
    To the honorable Congressman Brad Wenstrup and Congressman Mark 
Takano

    Let me start by saying the Cincinnati Police Department believes it 
to be an honor and a privilege to employ, and have as a part of its 
team, veterans from the United States Military. We feel there is no 
higher reverence to show towards ones country than to serve in the 
military with honor, pride and dignity. To employ individuals that 
embody the spirit of respect for the Country and themselves, allows us 
to maintain a high level of excellence as the standard in the honorable 
calling of policing.
    The Department and the City have used several different approaches 
to attract veterans to apply. For example, qualified veterans are 
awarded five bonus points on the initial exam. If the veteran is 
disabled they receive ten additional points on the exam. Our exam is so 
competitive that five or ten points are very significant and can propel 
you from a very average score to the top of the list. Currently, you 
must be an Ohio resident at the time of application to receive the 
bonus points.
    The department has aggressively looked for any career fairs or post 
military job fairs that cater to veterans either on a military base or 
those hosted off base by the military. We have constructed a group of 
Adjunct Recruiters who are veterans to assure we always have enough 
personnel to attend as many veteran recruiting functions as possible. 
We recognize that area natives who are in the military and are 
returning to this area and will be seeking employment beyond the ETS 
date. We also realize that there are many veterans who will be 
relocating to this area for the first time after exiting the military. 
Knowing that honorably discharged veterans make for excellent police 
candidates, the distance of travel to recruit at military facilities is 
not an issue.
    Military Guard and Reservists are also highly sought after 
candidates for our Department. Our Department and the City, attempts to 
accommodate Members of the Guard and Reserves as much possible, 
throughout their career with the Department. Once you are selected to 
the Police academy, the military provisions start. They will be in 
accordance of how far along you are within the Academy. We have had 
recruits called up for active duty while in the Academy. Upon being 
released from active duty, if they have completed a significant portion 
of Academy training we have assembled the necessary steps to get them 
State certified as soon as possible. If they have not attended the 
Academy for long, they may have to wait until the next class sits, but 
their position will still be available to them. When called for active 
duty after the Academy graduation your position and seniority will 
stand no matter how long the deployment.
    As a part of our local recruitment efforts we have developed 
postcard size flyers, announcing our application and recruitment, which 
are distributed through normal recruitment career fairs and placed in 
local businesses and other facilities with a high volume of pedestrian 
traffic. A list of local veteran's home addresses within the areas of 
Hamilton, Butler, Warren and Clermont counties and also the City of 
Dayton was secured through a private company. Those same flyers were 
turned into mailers and sent through the postal service to each listed 
address. The list totaled about five thousand addresses.
    Approximately thirty percent of the Cincinnati Police Department's 
sworn personnel are veterans. We take great pride in hiring veterans. 
We recognize that veterans make great candidates due to their 
commitment to duty and their want to serve and assist others. As a part 
of the thirty percent (I am a veteran of the Marine Corps and the 
previous Recruiting and Background Supervisor as well as Chief of 
Police, Colonel Eliot Isaac, being veterans of the Army National Guard) 
we take personal pride in helping veterans establish themselves as 
Cincinnati Police Officers. We advocate giving back to well deserving 
individuals who have given to our country. We can also be at peace 
knowing that we are helping to keep a high level of professionalism 
within our Department that not only helps us stand out as one of the 
best Departments, but ultimately gives the citizens of Cincinnati the 
type of service they deserve, require and want.

    Sergeant Dominic F. Gulliford
    Cincinnati Police Department
    Recruiting & Background
    513-352-2971

                                
                    Prepared Statement of John Sapp
    My name is John Sapp and I am the Executive Director of Sales 
Operations and Offset at General Electric (GE) Aviation. In addition to 
this role, and more applicable to this gathering, I also lead GE 
Aviation's Veteran's Network (GEVN). GE is honored to have over 10,000 
U.S. military veterans continue their career with us. Building on our 
strong commitment to military veteran recruitment and development, we 
launched the GE Veterans Network across all our businesses in November 
2009. The Network is organized around 3 pillars- Support, Hire, and 
Grow. both our own employees who are veterans and the veterans in our 
local communities
    First let me thank you for the opportunity to speak with you today. 
As an 11-year veteran of the US Air Force it is a true pleasure to be a 
part of this testimony, and I look forward to learning more about all 
of the other great initiatives underway to support Veteran transitions.
    GE is passionate about hiring Veteran's. At GE, we value the 
leadership, loyalty, integrity, and commitment to excellence instilled 
through participation in military service. We believe strongly that 
this service helps make great leaders that are disciplined, strategic 
thinkers with a level of loyalty that is unmatched. This appreciation 
for Veteran talent, as well as GE's desire to ``give-back'' to those 
that have made incredible sacrifices for the betterment of others, were 
the primary reasons for the 2012 launching of GE's initiative to hire 
5000 Veteran's in 5 years. As of Feb 12, 2016 we have already hired 
4,889 Veterans (1,137 within Aviation), and by year-end we will have 
exceeded our commitment by a significant margin.
    GE's hiring and transition practices have been successful in 
attracting and hiring a wide-range of Veteran talent from junior 
enlisted to General Officer. For example, GE's transition assistance 
workshops and one-on-one mentoring sessions are executed in conjunction 
with the Chamber of Commerce's Hiring our Heroes initiative, by our own 
GEVN Membership. GE's veteran employees coach with a focus on resume 
building, as well as interviewing techniques and job search strategies. 
These seminars are designed to help military personnel successfully 
communicate the skills they learned in the military to the corporate 
world. Furthermore, GE is also a founding Member of American Corporate 
Partners (ACP), a national mentoring program dedicated to helping 
veterans transition from the armed services to private enterprise 
through career counseling and networking with professionals. 
Internally, the GEVN and Human Resources have worked together to create 
a much deeper understanding of Veteran Talent through our ``value of a 
vet'' campaign, messaging the unique attributes of military talent that 
will help GE hiring managers to better understand Veteran backgrounds. 
Within GE Aviation, HR has also created a special team solely focused 
on connecting Veteran talent with open job postings, further impacting 
our efficiency in adding Veteran talent.
    For mid-career transitions, GE offers an experienced leadership 
program, designed specifically for military officers. The program is a 
unique opportunity to work in three 8-month rotations within a GE 
business. Qualified candidates, with exceptional military service, are 
selected to start their careers with GE in this two-year cross-
functional program, including both on-the-job and formal classroom 
training. I was fortunate enough to have entered the company through 
this program 8-years ago.
    Once on board, GE works hard to make sure the Veteran has an 
effective transition into the company. Our GEVN Grow pillar is focused 
on supporting the development of Veterans, including career 
development, mentorship and coaching. Coupled with the networking and 
Veteran connection activities that are a natural part of the GEVN, our 
former military employees find a supportive environment for growing a 
great career.
    Overall, GE is passionate about hiring, supporting and growing 
Veterans. We've made strong progress towards our goals to-date, but 
look forward to improving our support of Veteran's going forward, as 
well as learning from other business and government practices at forums 
such as this. Thank you again for allowing us to participate.

                                 
                  Prepared Statement of Stephanie Huff
    At HELP Plumbing, Heating, Cooling and Electric, we pride ourselves 
on our commitment to activities supporting veterans. Our support spans 
many different programs throughout the year. We are most known for our 
donation program where we give a portion of our profits every year to a 
local Veteran Support Program. The past several years we have donated 
to DAV. In addition, we have donated free services and equipment to 
local wounded veterans as well as widows and the children of fallen 
soldiers. We announce our donations at our annual Veterans Day 
appreciation breakfast which we host onsite at our office every year on 
Veteran's Day.
    We also strongly support hiring veterans. There are several 
different ways we focus our efforts on connecting with veterans for 
hiring opportunities throughout the year. We actively participate in 
sponsored events including Recruit Military Hiring Fairs, and other 
veteran targeted career fairs. In addition, in the spring of 2015 we 
hosted our own veterans hiring event on site at our headquarters where 
we brought in other military friendly employers with hiring needs, as 
well as non-profit organizations that support veterans for a daylong 
event. During this event we offered on site interviews, free lunch and 
other veteran specific support programs and services. We look forward 
to bringing this event back again this May.
    Outside of career fairs, we also focus on posting jobs on our local 
OhioMeansJobs.com website and reach out to partner with their Veterans 
Support team to have them assist us in finding qualified talent. We 
also reach out through trade specific sites and take advantage of 
programs and marketing materials provided through organizations such as 
www.troopstotrades.org through the Nexstar Legacy Foundation, to find 
individuals with specific interest in learning a skilled trade.
    There are many industries that have the potential to participate in 
registered apprenticeship programs through the state. Both businesses 
and job seekers benefit from apprenticeship opportunities. 
Participating and qualifying apprenticeship programs are offered in 
healthcare, construction, utilities and other industries.
    While HELP Plumbing, Heating and Cooling does not currently 
participate in the state recognized apprenticeship programs, HELP does 
pay for 100% of all training expenses for all new hires, this includes 
those with or without any industry specific skills or experience . Our 
program consists of 3-5 months of intense training to include classroom 
and field training experience as well as ongoing training throughout 
the year to consist of over 200 hours a year to keep our team Members 
on top of all necessary industry specific training needs. We also pay 
for all training and certification exams to receive state recognized 
license and certifications within each trade. This is a great 
opportunity for veterans transitioning to full time work where they 
want to learn a trade from the ground up.
    In 2013 HELP Plumbing, Heating, Cooling & Electric was presented 
the DAV National Commanders Award for Outstanding Small Employer of the 
Year for conspicuous and meritorious effort in providing employment 
opportunities for ill and injured veterans.

                                 
                   Prepared Statement of Jeff Carper

Total Quality Logistics / Best Practices in Veteran Hiring

    Hello, and thank you Representative Wenstrup for inviting us. We 
are honored to represent Total Quality Logistics at today's hearing and 
talk about some of our company's best practices when it comes to 
attracting and retaining military employees.
    Representative Takano, welcome to Cincinnati; we hope you enjoy 
your visit and can take some good ideas for military hiring back to 
your home district in California and to the House Veterans Affairs 
Committee in D.C.
    My name is Jeff Carper and I am a veteran who attained the rank of 
Sergeant in the U.S. Army, having served seven years from 1994 to 2001. 
Now I am an executive sales director at TQL. I have three main points 
I'd like to present today.

First: how we hire military employees.

    TQL has a recruiter exclusively dedicated to finding military 
talent for our company. LeeAnn Ryan is with me today. She's a Senior 
Airman in the United States Air Force Reserve whose own military 
experience and understanding of what it takes to transition into the 
civilian world makes her well suited for the role.
    LeeAnn recruits for both sales and non-sales positions at TQL. Her 
familiarity with the military jargon and terms that often appear on 
military resumes gives her a good idea of where an applicant might be 
best suited.
    Among other things, LeeAnn attends career fairs on military bases, 
and will be focusing on TAP/ACAP (transitioning assistance programs) 
events for military leaving the service or going into the reserve. She 
works with the TVCA - who are here today - Hiring Our Heroes, Recruit 
Military and other organizations to actively recruit from all branches 
of the service with postings on military-specific websites and job 
boards.

Second: why TQL is a good fit for military service Members.

    TQL is a freight brokerage firm. We connect shippers who have 
freight that needs delivered with carriers who can haul it. We 
specialize in truckload transportation although we don't own any trucks 
ourselves.
    This isn't a job most people coming out of school or the military 
have trained for. The trucking industry has unique rules, regulations 
and a language all its own. We train our own experts through a five-
month long training program, similar to what service Members experience 
in the military.
    We hire for the job based on soft skills. The soft skills that make 
one successful in brokering freight are similar to those taught in the 
military--the ability to learn new skills and concepts quickly, adopt a 
mission-driven philosophy and put forth core values to exceed 
expectations.
    Some of the comments we have heard from our military employees as 
to why they have succeeded at TQL:

    ``I work for a large company, but my team is like a small squad or 
fire team. We work well together.''

    ``Being in the military gives you a base structure. Self-motivation 
and self-discipline are expectations.''

    ``The culture and energy we have here is very similar to the Army. 
You always have a new goal in front of you, a new challenge to meet, an 
opportunity to be a leader.''

    As we continue to grow and expand into new cities around the 
country, we need employees with strong leadership capabilities. More 
than 90 percent of our sales leadership and management positions are 
filled from within the company. And again, teaching leadership skills 
is an area where the military excels.

Third: the TQL culture

    TQL is and has always been committed to being a military friendly 
company. Multiple managers at TQL have been recognized with Patriot 
Awards for their exemplary support of employees in the National Guard 
and Reserve. The company received the Above & Beyond Award from the 
ESGR (Employer Support of the Guard and Reserves) and we recently 
received our third Military Friendly Employerr recognition from Victory 
Media and G.I. Jobs magazine.
    The tone is set from the top. One of our core focus areas for our 
company's charitable efforts is military causes. The company and our 
employees actively work to raise money and support military causes. In 
2015, we worked with 13 military/veteran organizations contributing 
nearly $70,000 in charitable giving. And it's more than just dollars. 
It's personal support too. This is an excerpt from a letter sent 
directly to all of our military employees from CEO Ken Oaks on the day 
TQL signed its national statement of support with the ESGR.

    ``Members of the military are some of our strongest team Members at 
TQL. What you have learned through your military service -discipline, 
hard work, leadership - is important. What your choice to serve 
reflects - integrity, self-sacrifice, and love for your countrymen - is 
invaluable.
    Thank you for choosing to join the TQL team, but even more 
importantly, thank you for your service to our country.''

                                 
                   Prepared Statement of Matt Disher
    Good morning. Dr. Wenstrup, Representative Takano, Members of the 
sub-committee, panel Members and guests, thank you all for your time 
and dedication to this important topic.
    I am humbled and honored by my invitation to testify at this 
hearing, discussing best practices surrounding engagement and 
employment of military veterans in the workforce. I am confident that 
some of my shared strategies within Cintas will act as guidelines and 
best practices for any organization with the same desire of 
successfully employing veterans.
    My name is Matt Disher and I lead the 26 year old national military 
recruitment program at Cintas Corporation, headquartered here in the 
Cincinnati, Ohio area. I am also a veteran of the Marine Corps, having 
attained the rank of Sergeant upon my honorable discharge.
    The Cintas Corporation is a national leader in uniform rental, 
uniform sales, facility services, first aid and safety and fire 
protection. We service over 1 Million businesses from our approximately 
400 locations nationwide. At Cintas we pride ourselves on our ethics, 
professionalism, and positive discontent; all traits that we commonly 
share with the ranks of the US military. Cintas has been proudly 
recognized for over a decade and by numerous sources as a top employer 
of armed forces service Members.
    I'd like to start with a few anecdotal statements to address what 
Cintas values in military experience. Today's US armed forces are 
feasibly the most advanced and best-educated in history. The relative 
education level is higher in the military compared to the public they 
serve. Virtually all service Members endure countless condensed hours 
of valuable training in leadership, communication, history, planning 
and skill-specific or technical trades. This training is frequently put 
to use in practical application and real-world scenarios, and often 
without a traditional college education. It is not uncommon, in all 
generations of military service, to find a 20 to 25 year old leading a 
number of troops in complex tasks or dynamic missions sometimes with 
little guidance, oversight or situational information. To add, these 
young men and women are regularly operating some of the most advanced 
technologies in the world, in a no-fail setting; making them literally 
the topic of which books are written, movies filmed, and legends made.
    Because of their scope of duties, service Members become well-
traveled, exposed to various cultures, and physically and emotionally 
equipped to handle virtually any situation placed before them. These 
are commonly overlooked or misinterpreted traits in Corporate America, 
but arguably desired by all. At Cintas, these traits are necessary, 
needed and expressly sought.
    Within Cintas, and likely in other organizations that successfully 
operate such military programs, one element is generally agreed upon as 
a starting point and launch pad for success - executive support and 
sponsorship. The blueprints must be presented and supported from the 
top tier of an organization, written into policy or practice, and 
correlated with performance goals and participation; thus becoming a 
fixture in the company's culture. Without the appropriate culture-based 
orientation, the organization will wholly struggle to find value and 
the public -particularly the military population- will have trouble 
recognizing it.
    A proven supplement to this corporate cultural implementation, and 
a long-practiced staple at Cintas, is an internal resource that 
consists of a dedicated team, budget and resources meant to engage 
current service Members, veterans, related entities and service 
organizations. At Cintas, my team is well-versed on military 
backgrounds, common struggles and frequent pain points for the job 
seeker and the hiring manager alike. We also stay connected through 
current military-related events, political and compliance happenings, 
and charitable organizations, to aid us with future processes and 
involvement. Concurrently, the military and veteran population 
respectively consists of complex and well-connected associations, and 
should be regarded as the fraternal institutions they are, which is 
particularly useful in terms of outreach.
    Most importantly, this team acts as a direct conduit between the 
military/veteran applicant and the career opportunities, hiring 
managers and leadership within Cintas. This minimizes the chance of the 
applicant being overlooked in a mis-interpretation of military 
experience; and from the candidate becoming lost in an application 
process that may involve hundreds or thousands of other traditional 
applicants. At Cintas, we have an established medium of communication 
which allows the military applicant to directly contact the military 
recruiting team during their application process via email or 
professional media; by which method we are able to track application 
and interview progress and advocate for the applicant via screening.
    Following the recruitment or application process, we also implement 
educational collateral for managers or prospective leaders of military 
staff. Our team is the primary facilitator of such education, and acts 
as the champion for these dedicated efforts. The education and 
familiarization of leaders to military-experience is imperative to the 
hiring, onboarding and long term success of the current or former 
service Member. Similarly, setting expectations and creating mentorship 
opportunities among veteran-staff is inherently valuable.
    Finally, it is also our intention to continue to cultivate and 
improve these efforts which will lead to greater improvement in hiring 
and retention numbers among veterans.
    To summarize, much of our success on this topic comes from the true 
embodiment, adoption and education of these efforts on a national 
level. Similar to a military unit, in the absence of ongoing guidance 
from the military program at Cintas, local managers will carry out 
these efforts autonomously. It is this type of self-initiation and 
execution that Cintas exemplifies, and that a successful program should 
strive for.
    We proudly share best-practices, solid resources and even talent 
with other organizations should they wish to establish their own 
similar efforts. I am happy to answer any questions. Thank you.

                                
                   Prepared Statement of Dan Knowles
    Mr. Chairman and Members of the Subcommittee:

    Thank you for inviting the TVCA (Tristate Veterans Community 
Alliance) to testify today at this important hearing of the Committee 
of Veteran Affairs, Subcommittee on Economic Opportunity. As an 
independent, veteran-led, non-profit organization focused on improving 
the access to, and the quality of, services offered to veterans and 
their families in the local community, we appreciate the opportunity to 
share our perspective and provide recommendations to address the 
challenges we see to successfully employing and retaining veterans in 
our region.
    As a new and somewhat unique organization, let me start by 
explaining why we exist and what we do.

TVCA Purpose

    The purpose of the TVCA is to make the Greater Cincinnati region a 
preferred destination for veterans and their families. We do this by 
emphasizing strong veteran employment opportunities in the region and 
by ensuring an aligned and collaborative environment among tristate 
employers, service agencies, and educational institutions - our 
partners in serving those veterans.
    We work closely with existing backbone organizations, such as the 
United Way, the Regional Chamber of Commerce and Interact for Change, 
to operate efficiently and to extend our efforts broadly within the 
community. We work transparently with community influencers in the for-
profit, non-profit, public and private sectors to achieve our goals. 
With our partner organizations, we are improving access to the services 
most needed by veterans and families while improving both the quality 
and efficiency of the service framework within the community.
    Where there are gaps in service, we seek to fill them directly or 
work with our service agency partners to do so. We believe that by 
doing this, we will be able to better attract and retain veterans that 
bring the strong leadership, discipline, personal accountability and 
advanced problem-solving skills required to fuel the continued growth 
of our community in the decades to come.

Brief TVCA History

    The TVCA was founded in July of 2014 in response to a community-
based assessment to document the size and nature of problems facing our 
region's veterans and to begin to evaluate the state of community 
readiness to welcome and support returning veterans and military 
families. This effort was coordinated by the Easter Seals Tristate 
organization, who published their findings in May 2014, in the Tristate 
Veteran Community Report: Needs Assessment and Initial Recommendations. 
The first recommendation in the report summary was to ``create a 
tristate (sic) Veteran Community Alliance . to coordinate, educate and 
align the veteran support systems..'' across the region to better 
support transitioning veterans and families.
    The TVCA began planning and organizing activities as an 
unincorporated association on July 9, 2014, when its organizers met 
formally for the first time for that purpose. It was incorporated on 
November 14, 2014. Until the TVCA received its 501(c)(3) confirmation 
from the IRS on June 19, 2015, the programs and activities of the 
Organization were funded through donations made for that purpose to 
Interact for Change (an exempt public charity) that had agreed to act 
as ``Sponsor''.
    Initial funding was provided by several local, private foundations 
and supplemented in January 2015 by a grant from Major League Baseball 
(MLB) to create a Veteran In-Processing (VIP) & Welcome Center. In 
March 2015, construction began on the VIP Center and the TVCA held its 
first public meeting to formalize partner relationships with over 40 
community service organizations supporting veterans. In late-May 2015, 
the TVCA began reaching out to veterans and families and, in July, the 
TVCA launched a self-guided Veteran & Family Resource Portal and 
officially opened the VIP Center. The TVCA has since served over 170 
veterans at the VIP Center and estimates that at least twice that 
number have been served through the resource portal. The TVCA now works 
with over 80 community partner organizations, including major 
employers, colleges, and service agencies.

TVCA Operations

    The TVCA operates exclusively to support veterans and families 
residing in the 15-county Greater Cincinnati area, in SW Ohio, N 
Kentucky and SE Indiana. It does this largely by working through its 
network of partner organizations.
    The TVCA operates with a small paid staff and has a volunteer board 
comprised of Executive Committee Members and Members-at-large. The 
board meets each month and is chaired by US Air Force Major General 
(retired) Leonard Randolph, Jr. MD., former USAF Deputy Surgeon General 
and Chief Medical Officer of Mercy Health. Other Executive Committee 
Members include retired military leaders, business and service 
organization executives from Interact for Health, the law firm KMK, the 
United Way, the local Veterans Administration, and the USO.
    Members-at-large include the chairpersons from 5 community-based 
workgroups in the areas of Employment, Education, Health/Wellness and 
Family Services, Collaborative Impact, and Peer Mentorship. These 
workgroups meet independently every 4-6 weeks with recognized partner 
organizations in those sectors to share best practices. They work 
collaboratively to address common sector issues, all for the betterment 
of veterans and their families.
    One of the well-documented challenges that service Members face as 
they leave the service is the overwhelming `sea of goodwill' that 
exists in many communities - including ours. This refers to the 
plethora of mostly well-meaning organizations that reach out to help 
veterans. While the intent is genuine, the lack of coordination, 
service fragmentation and the siloed nature of the service sectors 
often results in confusion, frustration and disengagement. This, in 
turn, often leads many veterans to seek emergency services for chronic 
debt, depression, substance abuse, and / or homelessness.
    The TVCA's veteran leadership, staff and peer mentor network allows 
us to provide a knowledgeable and culturally familiar environment to 
intercept and assist veterans earlier in their transition. Two-thirds 
of board Members and staff are veterans or spouses of veterans. This 
experience and empathy allows the TVCA to gain the trust of veterans, 
enabling them build and follow a reintegration path personalized for 
their goals and needs, and avoid the requirement for costly emergency 
services paid for by individual taxpayers and the community.

TVCA Support of Veteran Employment

    The TVCA provides employment support to veterans and family 
Members, primarily in the low-moderate income range, within the Greater 
Cincinnati tristate region. It does this by more efficiently connecting 
transitioning veterans who are either unemployed or underemployed with 
the job readiness services, counseling, and educational support that 
exists in the community. It also ensures that employers in the 
community understand the significant benefits that those who have 
served in the military can contribute and helps them identify, hire, 
on-board and retain those veterans that best fit their job 
requirements. The TVCA does this by

    <bullet>  bringing employers and employment service providers 
together to share best practices and collaborate in veteran hiring 
initiatives;
    <bullet>  conducting training programs for employer leaders, first-
line supervisors and HR recruiters;
    <bullet>  ensuring that current and soon-to-be veterans have the 
resume, networking and interviewing skills required; and
    <bullet>  facilitating direct connections between veterans and 
employers or via support of partner job fairs.

    Additionally, the TVCA works directly, and through our local 
service partners, with veterans requiring affordable housing, financial 
and debt management, and medical and disability assistance to help them 
achieve a more self-sustainable lifestyle that permits stable 
employment. The TVCA's goal is to ensure these highly trained and 
capable former military service Members and their families find the 
right career path and become contributing Members of our community.

Key Veteran Employment Challenges

    Of the 99,000 veterans in our 15-county tristate area, 
approximately 25,000 have transitioned out of the military since 1990 
and are thus more likely to be either employed or seeking employment. 
Over 9,000 of these veterans have left the military since 2001. 
Unemployment is higher in this group than in older veteran cohorts and 
among non-veterans of the same age. The size of this younger, higher 
risk group is projected to double within 5 years.
    There are a number of challenges that contribute to the difficulty 
that veterans experience as they transition to civilian employment. 
Described below are 10 key challenges that that tend to impede the 
hiring and retention of veteran talent prior to, and during, the first 
2 years of employment. Each challenge is followed by best practices and 
recommendations based on input of TVCA partners.

Challenge 1: Misaligned Expectations in the Hiring Process

    Many veterans don't know what to expect when it comes to finding 
employment after they leave the service. The military may have been 
their first real job after high school and that `hiring' experience was 
very different than that of their non-military peers. For many veterans 
in transition it is their first time having to create a resume, 
research potential employers, submit on-line applications, network to 
gain access / referrals, and to go through job interviews. Compounding 
this lack of experience in the hiring process are the unique cultural 
norms of military service which, for example, eschew taking personal 
credit for accomplishments, emphasize communicating only what is 
essential to answer the question, and downplaying challenges in 
achieving difficult objectives.
    Not recognizing these drawbacks beforehand, many new veterans have 
heard and believe that civilian organizations are both anxious to hire 
and willing to pay a premium, for those with military experience. They 
are thus less motivated to take advantage of transition training 
required by the military prior to out-processing and often approach 
their initial job search with an inflated sense of confidence that it 
won't take them long to land a high-paying and respected position. The 
reality of how difficult the job search is can becomes a source of 
frustration, anger and depression for many.

Best Practices and Recommendations:

    1. Provide a more realistic perspective of the job search process 
and challenges when service Members are preparing to leave the 
military. This can best be done by those local organizations that 
provide workforce development services (e.g. United Way's Partners for 
a Competitive Workforce) and by recently transitioned veterans.
    2. Provide departing service Members a list of local contacts for 
organizations that can help transitioning veterans build a transition 
plan and connect them with local employers and service agencies.

Challenge 2: Attracting Veterans for Employment

    From an employer standpoint, many in leadership positions believe 
that 1) veterans should be hired for all the positive attributes they 
bring to an organization, and 2) there are lots of veterans to choose 
from due to the well-publicized reductions in force. They support 
posting jobs on military and veteran job boards and encourage company 
representation at military career fairs and events. They will often 
promote their company or organization as being `military- or veteran-
friendly' places to work. Leadership expectations are therefore quite 
high.
    However, for the employees that actually have to attend the career 
fairs, screen the applications, interpret the resumes, and conduct the 
interviews, they are frequently not familiar with military descriptions 
/ experience, and don't understand how to elicit the information needed 
from their interviews with veteran applicants. Many HR recruiters, as 
well as hiring managers, don't understand the scope of responsibility 
and training that veterans may have already mastered and frequently 
don't even know what questions about their service are okay to ask and 
which are not. Many of the attributes promoted as evidence of being a 
`veteran-friendly' employer, can seem very shallow to the very 
prospects they are trying to attract. Clearly there is a need for 
additional employer education.
    Veterans typically look at on-line job postings on dozens of 
websites and portals. They will often see positions described in terms 
of what the ideal candidate would bring and will `self-select' out of 
applying because they either don't understand the language used to 
describe the position requirements or don't feel they have the specific 
experience the organization is looking for. They underestimate the 
value to employers of the strong, basic employability (`soft') skills 
they do have.
    At the career and job fairs they attend, most of the employers will 
have HR representatives there - many of which lack military experience 
- to provide an overview of the company, collect the resumes, and 
perhaps do a very preliminary screening interview. To the veteran 
unfamiliar with the job search and selection process, they often expect 
to leave the job fair with a job offer, or at least confidence that one 
is quickly forthcoming. That is often not the way employment 
organizations work. Veterans get frustrated when they don't hear back 
promptly. Employers will often take weeks or months before they are 
prepared to make a decision and are thus often frustrated when the 
veterans they wished to offer or bring in for additional interviews are 
either no longer available or interested. At each level of the 
attraction and hiring process, there are misaligned expectations.

Best Practices and Recommendations:

    1. Educate and provide consulting to employers on what benefits and 
programs are truly `friendly' to the military / veterans they seek to 
hire. Provide both oversight and positive incentives to ensure 
authenticity in promoting this to veterans.

    2. Make military background and culture training available to the 
hiring managers, HR recruiters and supervisors of employers that seek 
to hire veterans. Consider financial incentives to companies who 
routinely provide this training to their HR employers.

    3. Provide on-site peer mentors at career and job fairs to help 
coach veterans seeking employment and set appropriate expectations 
regarding follow-up with exhibiting employers and prospects.

Challenge 3: Resume Preparation

    Although DoD now mandates training on how to prepare a resume 
during out-processing, most veterans beginning transition have only a 
perfunctory understanding of how to translate in writing their goals, 
experience, training and skills in a compelling way. Most initial 
resumes are poorly formatted, full of military acronyms and jargon, 
packed with training courses completed, certificates received and 
awards presented. The military work experience is primarily described 
in terms of scope of responsibility and is very short on measurable 
accomplishments.
    From an employer standpoint, veteran resumes are difficult for non-
veterans to understand, take longer to process and are `intimidating' 
to many HR professionals. Unless HR recruiters or managers are trained 
on how to interpret military resumes, or there is a separate process in 
place to have them screened by someone familiar with the military, the 
resumes are often bypassed or rejected.

Best Practices and Recommendations:

    1. Upgrade the resume preparation training in DoD transition 
programs. Provide examples of well written resumes for specific 
industries as models for departing service Members to follow.

    2. Establish within employer HR departments a separate military / 
veteran track for resume review and follow-up. Include current veteran 
employees - either in HR or as volunteers - in this process.

Challenge 4: Networking

    A key part of the job search process is meeting others in the 
community that might be able to provide an introduction or forward your 
resume to an influential person at a prospective employer. Being able 
to plan and take full advantage of networking opportunities is one of 
the most effective ways to find employment. Unfortunately, this is one 
of the least understood strategies for veterans looking for work. There 
are certain skills and specific preparation required to network 
effectively that veterans in transition must take advantage of. It 
requires being willing to ask new acquaintances for specific help and 
being willing to follow-up with networking contacts. Education of 
veterans on the importance of networking in the job search process and 
the skills required is not yet widely available.

Best Practices and Recommendations:

    1. Include training on the importance of networking as part of the 
job search process. Include skill development workshops as appropriate.

    2. Leverage networking training as a topic for connecting student 
veterans with local employers.

Challenge 5: Interviewing

    Once through the application and screening process, the job 
interview is next hurdle. Veterans often have great difficulty 
presenting themselves and their experience in the most compelling way 
to the interviewers. The interviewers generally aren't familiar with 
military experience and training and frequently misinterpret or fail to 
explore responses beyond the standard questions and templates that are 
used for all job interviews. The wording and context of those questions 
may seem `basic' to civilian job applicants but are often confusing or 
seem irrelevant to new veterans. For example, questions about `working 
in a diverse environment' or `describing a time when you personally had 
to accomplish something under stress' seem out of context to those with 
military experience (e.g. what is meant by `diversity') or are 
antithetical to the values of military leaders (e.g. taking personal 
credit for a team accomplishment). Training of both veteran applicants 
and civilian interviewers can help.

Best Practices and Recommendations:

    1. Include veteran employees in the interview panel for all veteran 
applicants. Knowledge of military training and experience will allow 
adaptation of questions and further development of responses that 
indicate lack of contextual understanding by the applicant.

    2. Adapt behavioral interview templates to enable those with 
military experience to respond in a way that highlights the skills or 
traits that the employer seeks to identify.

Understanding Cultural Differences

    Many difficulties originate with the differences in culture between 
military and civilian organizations. These differences are not only 
reflected in the hiring process, but in retaining veteran talent once 
hired. Awareness of the differences and small interventions during on-
boarding and early career discussions can easily address many of these. 
There are 4 key areas that tend to be problematic - Organizational 
Dynamics, Interpersonal Skills, Management & Leadership Norms, and 
Giving and Receiving Feedback.

Challenge 6: Adjusting to the Organizational Dynamics

    While the type of work may be similar, the alignment between 
mission, structure and motivation is one of the most problematic 
differences that can lead to veteran dissatisfaction and loss.
    Mission First vs. Mission .huh? In the military, there is a near 
constant reinforcement of knowing, training for, and accomplishing 
specific and tangible missions. In civilian employment, the 
organization's mission, if known at all, is likely to be stated in very 
general or vague terms - often posted somewhere on a wall in the 
hallway, but infrequently referred to. Its lack of prominence by itself 
is, at best, confusing and, at worst, the source of blame and 
frustration when things go awry.
    When mission statements are found or referred to in management 
meetings, it is often strikingly complex to the point of being 
meaningless. A company's mission statement that refers to, ``serving 
customers'', ``generating favorable returns'', and / or ``meeting 
stakeholder expectations'', can feel very bureaucratic and somewhat 
less than inspiring. This is particularly true when compared to the 
specificity of a unit or branch mission, e.g. the Marine infantryman's 
mission is ``to close with and destroy the enemy in close combat''.
    Even among employers that prominently express their mission, there 
is often a lack of alignment between the mission, how the organization 
operates and how its employees behave. In the military, the unit 
mission generally is reflected in the organizational structure and 
drives individual behaviors. A combat unit will often be built to 
accomplish a specific mission, with sub-units attached or detached as 
required, and a clear chain-of-command established to govern the whole 
for the duration of that mission. The role of each organic unit or 
attached sub-unit is clearly defined everyone is briefed and often 
rehearsed on their role in the accomplishment of a given task.
    In the civilian workplace, group reorganization and shifts in 
leadership responsibilities around specific missions are seldom seen. 
More often found is the usually confusing reference to operating within 
a `matrixed' organizational structure with `solid-line' or `dotted-
line' reporting expectations to functional leaders. For a veteran, this 
can be disorienting and creates situation in which they question the 
authentic motivation of the people they are working with on specific 
projects or teams.
    Employee motivation in general is a source of frustration for many 
veterans. In the military, where accomplishing the mission or task at 
hand comes first in personal priorities, it is often difficult to 
understand how civilian employees can leave when their shift or normal 
work day is complete and the mission or task is not.
    Equally or perhaps more frustrating is the difference in drivers of 
motivation. People willingly join the military and conduct 
extraordinary difficult, often dangerous, tasks for little pay and less 
recognition. The motivation drivers for most of those joining the 
military include a sense of service, patriotism, and a belief in 
protecting our freedoms. The more prevalent motivation for civilian 
peers in the workforce are personal compensation, benefits, and career 
progression. This abrupt juxtaposition of personal, largely extrinsic, 
motivation vs. the shared, largely, intrinsic motivation more prevalent 
in the military can be very demotivating to veterans early in their 
careers.

Best Practices and Recommendations:

    1.More clearly spell out the company and / or hiring organization 
mission in terms that are concise, meaningful and measurable. Be 
prepared to discuss why profit is important - this is not a generally 
understood concept in the military lexicon.

    2.Explain how the organizational structure supports that mission 
and how it has adapted in the past in response to new threats or 
opportunities. This makes it seem more flexible and familiar.

    3.Clarify expectations of a typical work day. Discuss behavior 
expectations, to include the concept of work / life balance and the 
need to maintain motivation in an `at will' employment environment.

    4.Assign a veteran mentor who has been with the company as a 
resource for questions.

Challenge 7: Developing New Interpersonal Skills

    In the military, accomplishing difficult missions requires working 
closely in situations of great stress with others from diverse 
backgrounds and experience. Individually, service Members must be able 
to recall and communicate specific details rapidly and succinctly to 
others. There is great value attached to being concise, precise, and 
`on task'. To facilitate this, one quickly learn short cuts in how to 
communicate and try to strip out nuance or emotion not seen as critical 
to transmitting what is required for the mission. In training to be a 
military leader, you frequently hear the adage `they don't need to like 
you, they only need to respect you'. When working in the civilian 
sector, these same practices and traits are frequently cited as 
evidence of below average interpersonal skills.
    This is aggravating to many veterans who believe they are 
communicating what is required and feel their co-workers are being too 
sensitive. They must pay attention to being less abrupt and concise in 
providing direction and must consider the tone of what is said - 
something that was much less important in the military. These skills, 
by themselves, seldom rise to the level of frustration that cause a 
veteran to seek other employment, but they are a daily reminder of big 
gap that exists between their success in the military and what is 
considered important in the civilian employment.

Best Practices and Recommendations:

    1.Explain communication norms: How to address others - leaders 
especially; Need to solicit input and ask questions to gain alignment 
vs. being directive.

    2.Make veteran new hires aware of tonality and non-verbal behavior 
in communicating with others.

    3.Provide training and / or examples of effective written 
communication.

Challenge 8: Understanding that `Teamwork' Means Something Different

    In the military, you are taught to work in teams, ensuring everyone 
on the team is aligned on what the mission is and understands their 
role. Collaboration with, and support of, your teammates is the highest 
priority because - as reinforced from the first day of training - you 
succeed or fail as a team. When assigned to teams in the civilian 
workplace, the team is frequently comprised of representatives of 
different departments, each with different objectives relating to their 
function. For example, someone from legal is assigned to ensure the 
team doesn't increase company liability, someone from finance is there 
to make sure the team considers profitability as well as revenue, 
marketing is there to make sure brand standards are upheld, project 
management participates to hold the team accountable for meeting 
process deadlines, etc. Each is responsible for representing the 
interests of their functions first and the team mission is frequently 
of secondary concern.
    There also tends to be less formality in how teams work in the 
civilian workplace than in the military. In the latter, there is 
generally a recognized protocol in terms of who speaks and when. This 
is not always the case in civilian team meetings. Newly hired veterans 
will refrain from participating in discussions and become frustrated 
when talked over or interrupted by others with less experience and 
knowledge. In civilian workplace meetings, the individual who speaks at 
will is recognized for `adding value' - in the military, the same 
behavior might be criticized as `insubordination'.

Best Practices and Recommendations:

    1.Discuss veteran expectations about teamwork and clarify specific 
roles of team Members upfront. Encourage flexibility. Offer training on 
conflict resolution and alternative team-building techniques.

    2.Reinforce the role and importance of informal meetings to making 
things happen.

Challenge 9: Learning a Different Leadership Style

    Another area of frequent frustration and disillusionment that leads 
to retention issues is how management and leadership are practiced 
outside the military. In the military, the principles and practice of 
leading others is reinforced in nearly every aspect of the job. There 
is a consistent, authoritative style that emphasizes top-down decision-
making. While seeking input from those with more experience is 
encouraged, the concept of `consensus' leadership is seldom, if ever, 
discussed. Consequently, service Members become extremely comfortable 
and skilled in one particular style of leading and responding to others 
- a style very appropriate given their mission. Once out of the 
military however, an authoritative style of leadership is seldom the 
best choice. Without a discussion about leadership norms in the 
civilian workplace, veterans quickly become cynical about what they 
perceive as a `lack of leadership' in their organization or frustrated 
when they are cautioned about being too hard-nosed and directive with 
their subordinates. This can lead them to either begin searching for 
other employment on their own or being asked to do so by the employer.
    One aspect of this new leadership environment that is particularly 
confusing for young veterans is simply understanding who the leader of 
the group is and why. In the military, a person's experience and 
position are obvious - they wear their name, rank, unit designation, 
training accomplishments and commendations on their uniform. 
Additionally, progression in rank and responsibility is fairly uniform 
within the different branches and so leadership in a given situation 
can be quickly determined. Not so in the non-military environment. 
There are seldom uniform designations on display and leaders may be of 
any age and level based on a number of individual accomplishments. 
Coming from an environment in which one is expected to defer to leaders 
based on rank and obvious experience, it can be difficult for a new 
veteran employee to identify how to respond and to whom.
    Two other aspects of leadership that can create retention issues 
are how tightly defined the scope of responsibility is and the 
flexibility of operation allowed. In the military, leaders are trained 
to understand how their particular role or mission fits within the 
context of the `big picture' or higher level strategy. They are also 
expected to be able to think through the detailed management of how to 
execute the operational plan they or their unit are required to 
perform, as well as plan for contingencies if the parameters of the 
plan change. This requires a much broader level of strategic thinking 
and higher attention to detail than most positions in the civilian 
workplace expect, particularly in entry level positions. While it seems 
like these would be skills that an employer would value, it frequently 
causes supervisors and mid-level managers problems of constantly having 
to answer questions they aren't prepared to address or `reign in' young 
veterans who seem to lack focus on the specific tasks they've been 
assigned. Frustration for both the veteran employee and veteran's 
managers can result in dissatisfaction and loss of employment.
    The role of flexibility and authority can also be a point of 
contention. In the military, one is taught to `adapt and overcome', 
whether it is lack of administrative resources in a headquarters or an 
unexpected barrier on the battlefield. Initiative is recognized and 
rewarded as long as the mission is accomplished and others are not 
unnecessarily put in harm's way. Outside the military however, there 
are rules and protocols that are not always well understood and 
initiative is permitted inside certain boundaries that are not always 
well defined. Veteran employees will often chafe at seeing 
organizational inefficiency or work with colleagues who seem resistant 
to step outside a defined process to get things done - choosing to 
dismiss it as `not my job' or `too risky' to them personally.

Best Practices and Recommendations:

    1.Provide backgrounds and photos of key leaders in the 
organization. Emphasize their diversity of experience and clarify how 
to best interact with them.

    2.Explain leadership norms within the company. Recognize the 
veteran's leadership experience and explain the opportunity for them to 
expand their leadership proficiency with different styles.

    3.Explain company decision-making process and discuss value of 
taking initiative vs. needing permission.

Challenge 10: Giving and Receiving Feedback

    This area can also be a major adjustment for those transitioning 
from military to civilian employment. In the military, feedback is 
continuous, concise and deliberate. It tends to focus less on what went 
well and more on the shortfalls vs. specific standards, responsibility 
for who should have done what, when, and expectations for improvement. 
The intent is less personal than it is to ensure individuals are clear 
on what went wrong and can learn how to improve as quickly as possible. 
It is thus expected and valued by those in the military. Veterans in a 
civilian workplace often find that there is relatively little feedback 
compared to what they are used to. Additionally, what feedback they get 
often feels `sanitized' and less than direct which leads to a lack of 
trust in those they are working for. Particularly important is 
understanding the organization's `code words' for types of feedback - 
e.g. does `good' mean well-done or barely passing? Is `excellent' the 
same as `outstanding' - or not quite?
    When it comes to giving feedback, veterans understand the value of 
direct and detailed feedback but have predominantly been trained on 
only one way to provide it, regardless of the situation. That feedback 
style, instead of being seen as helpful, is often felt to be abrupt and 
lacking `balance' in recognizing all the positives before highlighting 
specific areas for improvement. Those not used to being critiqued in 
this fashion may feel it as a personal attack and complain about the 
veteran leader's insensitivity to the situation.

Best Practices and Recommendations:

    1.Recognize the importance of providing feedback to show 
consistency with value in military.

    2.Explain how feedback is normally provided, both informally and 
formally; Explain what `code words' are common and what they mean

    3.May need to coach veterans on how to provide feedback to 
subordinates and peers.

Summary

    Hiring and retaining today's veterans is important - not only in 
recognition of their valor and their service to our country, but more 
pragmatically to help ensure the competitiveness and disciplined 
leadership that our companies and organizations will need in the coming 
decades. Collectively, the Department of Defense, Congress and our 
State governments need to support the initiatives in local communities 
within which our veterans and their families will be hired and 
supported. It is the local community who has the most at stake - and 
the most to gain - by ensuring the welfare and continued success of 
today's and tomorrow's veterans.

    Respectfully submitted on behalf of the Tristate Veterans Community 
Alliance - February 19, 2016.

                                 
                  Prepared Statement of Chris Newsome
    Members of the committee, representatives, and respective guests,

    I thank you for bringing this panel, and this collective group 
together to address and discuss an issue that is of the utmost 
importance on a national scale. Best practices in veteran hiring not 
only affects the veteran and their family, but also the bottom line 
success of any organization engaged in such an endeavor. Beyond being 
an inherently good thing to incorporate in HR processes, veteran hiring 
simply makes good business sense. Those who recognize this, and are 
equally willing to invest dedicated efforts, personnel, and resources 
to this initiative, stand to greatly augment and enhance their 
workforce, while naturally strengthening their company.
    I am here today, representing RecruitMilitary. We are a Veteran 
Owned and Operated, full service military-to-civilian recruiting firm 
that has been championing the veteran community, and helping to bridge 
the gap between transitioning personnel, the veteran population, and 
Corporate America since 1998. We are Head-quartered out of Loveland, 
OH. We offer companies the ability (and associated resources needed) to 
effectively connect with the veteran population. We have conducted over 
800 veteran career fairs across the country since 2006, connecting over 
430,000 job-seeking veterans with over 24,000 organizations. Beyond the 
scope of our career fairs, we offer our corporate partners the ability 
to access the nation's largest sole- purpose job-seeking veteran 
database (820,000 veteran profiles), as well as capturing the attention 
of the transitioning population through our on-base magazine available 
to our partners who wish to augment their branding efforts. While 
working with a majority of the Fortune 500, and thousands of 
organizations throughout the country, we have a unique perspective on 
what works best for companies, and the needed tools to build these 
strategies from the ground up.
    Success is driven by acknowledging and effectively leveraging the 
immense talent and value stemming from our armed services. However, to 
understand best practices in hiring from the veteran community, it is 
imperative that we understand what a veteran is. We are yesterday's, 
today's, and tomorrow's leaders. The Department of Defense has invested 
millions of dollars into each of us, to ensure we are experts within 
the realm of which we serve. We are proud, hardworking, patriots who 
seek to take the bountiful skills and virtues taught to us in the 
service, and apply them in the civilian sector to enhance ourselves and 
the organizations we represent. We are the top tier candidate pool, 
outperforming our peers.
    Each organization must engage in this effort in their own 
meaningful way. There is no one-all- encompassing solution to attaining 
a successful veteran hiring initiative. However, there are general 
guidelines that can universally be applied to ensure a successful 
starting point is established.
    Each organization brings unique appeal to the job seeker, and each 
organization has a unique personnel need. In some cases, understanding 
certain military occupational specialties (a service Member's job) is 
an appropriate fit, due to the synonymous job descriptions. In other 
cases,
    their leadership experience and intangible strengths are going to 
be more important. A majority of the veteran population also has 
comprehensive civilian work experience and many have obtained a formal 
education upon departing the service. It is a fluid dynamic, that 
requires non- passive techniques that put a company's name/brand at the 
forefront of the veteran hiring discussion.
    An organization must ask: ``Why do I value the veteran 
population?'', ``Why is my company a good company to work for?'', ``Why 
do I consider my company to be a great place for a veteran to explore a 
career path?'', ``What are my company's greatest needs?'', ``What are a 
veteran's greatest strengths?'', ``Where do I have an immediate need 
for self-driven/leadership-oriented employees?''. Once these answers 
are clear, a dedicated veteran hiring initiative can be incorporated 
into the overall organizational Talent Acquisition process. One may 
require a branding strategy, on top of a proactive engagement (career 
fairs, social media, and community outreach) to ensure their company is 
synonymous with veteran hiring.
    It is important to conduct an inventory on your existing veteran-
workforce. Take a special interest in their experience and their notion 
of why your company is a great fit for he or she personally. Use this 
information in your language and overall approach to the job-seeking 
veteran population. The organizations who tend to have a higher success 
rate are those who can speak to this, and even incorporate current 
veteran employees in the recruiting process. Having veterans on your 
recruiting team essentially stands as a veteran endorsement.
    Proactive engagement is key. Tapping into the veteran population is 
not as easy as saying ``we're veteran friendly''. Never be passive. 
And, the days of checking off the blocks and relying strictly on job 
postings has passed. Understanding this population's true value and 
potential, will drive a company's ability to express their desire to 
hire them.
    This topic requires more time and words than I am allotted in this 
particular segment, so I hope my statement will generate further dialog 
and questions from you all.
    Again, thank you for your time and for asking me to speak on this 
panel.

                                 
                       Statements For The Record

                         James R. O'Flaherty, 
               JDOG JUNK REMOVAL AND HAULING HEADQUARTERS
    Mr. Chairman and Members of the Committee:

    Thank you for inviting JDog Junk Removal and Hauling to submit 
written testimony for the record at this hearing focused on best 
practices associated with hiring military veterans. JDog was 
established by Jerry Flanagan, a US Army veteran, and is our Nation's 
only brand that franchises exclusively to military veterans and their 
families. I will focus this statement on the important lessons we have 
learned during this process at both the franchisor and franchisee 
levels, and the resulting best practices we have adopted. JDog 
currently has expanded to over 50 territories in 16 states, and our 
rapid growth has not been without valuable lessons learned in the 
process. Our mission's ultimate goal is to put veterans to work and 
ensure their ongoing success as they pursue the American Dream.
    In 2011, Jerry and Tracy Flanagan started JDog Junk Removal and 
Hauling in Berwyn, PA. They ran the company on the principles of 
respect, integrity, and trust, which quickly became the slogan of JDog. 
In 2013, Jerry began to franchise this business model, requiring 
potential franchisees to be military veterans or immediate family 
Members. We established this barrier to entry to ensure exclusivity and 
bolster the initiative of creating as many veteran small business 
owners as possible since military veterans are twice as likely to own a 
business as the general population \1\. Additionally, we encourage 
these franchisees to hire other veterans in their respective 
territories with the goal of helping reduce the veteran unemployment 
rate as a whole.
---------------------------------------------------------------------------
    \1\ Hudson, M. (2014, November 5). Startup Success: Veteran-Owned 
Businesses Are Gaining Traction With Investors. Forbes. Retrieved 
February 17, 2016, from http://www.forbes.com/sites/mariannehudson/
2014/11/05/the-right-stuff-veterans-are-building-great-companies/
#5a3ce61ce772
---------------------------------------------------------------------------
    We have noticed that a best practice for attracting, hiring, and 
retaining Members of the veteran community is to establish an 
environment that fosters growth, camaraderie, and mutual support. The 
structure of our business model inherently sets the franchisee up for 
success and promotes continued growth. We have established a scaled 
flat-rate royalty system to ensure the franchisee retains more of their 
hard-earned money, and currently waive fees commonly found in a 
franchise system such as technology, marketing, and call center fees. 
This has directly translated to the franchisee having the means to 
expand and hire more veterans to their team. Since we have the only 
brand exclusively for veterans and their family Members, we have a 
sustainable competitive advantage that not only sets our franchisees 
apart from the competition, but also promotes the ``ethos of 
brotherhood'' that our military veteran community desires.
    Hudson, M. (2014, November 5). Startup Success: Veteran-Owned 
Businesses Are Gaining Traction With Investors. Forbes. Retrieved 
February 17, 2016, from http://www.forbes.com/sites/mariannehudson/
2014/11/05/the-right-stuff-veterans-are-building-great-companies/
#5a3ce61ce772
    As a franchisor, JDog has instituted a vetting process to ensure 
the potential franchisee is a good match for us, and more importantly 
that JDog is the right match for them. We evaluate the candidate based 
on the ``Whole Soldier Concept''. The desired personality traits are 
someone who is motivated, outgoing, resourceful, detail oriented, and 
persistent. Additionally, support entities such as family, business 
associates, and professional networks are key to the success of the 
franchisee's effort. During the development of this vetting process, 
we've noticed that those who possess the aforementioned qualities and 
support bring invaluable skills, interests, and experience to the table 
- leading to success both personally and for the franchise. As a 
result, we at the franchisor level have enjoyed the benefit of constant 
feedback and ``bottom-up refinement'' from our franchisees. Also, this 
vetting process increases the likelihood of success for the veteran 
operating the franchise.
    Another best practice for hiring veterans resides in fostering an 
environment that encourages groupthink and sharing of ideas. We 
understand the value of individual input, regardless of position, 
billet, or location. Many employers underestimate the value a Member of 
the military veteran community brings to their team, and we have 
realized that one of the most appealing aspects of our company is our 
standard of encouraging feedback and critiques. This not only benefits 
the franchisor immensely, but also helps the brand grow as a 
collective.
    To further bolster the franchisor/franchisee relationship at JDog, 
we've put several ongoing support mechanisms in place. Once we award a 
franchise to a veteran or family Member, the franchisee attends a four 
day training session at our headquarters to learn the details of how 
the system works. The training includes daily operating procedures, 
marketing and advertising strategies, scheduling, instruction on 
several available revenue streams, and practical application. After 
training, our Quality Assurance, Marketing and Operations sections 
provide ongoing support. This support includes, but is not limited to, 
establishing relationships with companies contracting our junk removal 
and hauling services, ongoing advertising assistance and training, 
developing both web-based and tangible marketing strategies, and 
providing crucial one-on-one mentoring and advising on any issues 
associated with establishing and growing a small business. In many 
ways, these support mechanisms and training mirrors what the vet 
experienced while serving in the military, thus easing the transition 
for them to be successful operators of a franchise.
    In addition to the franchisor establishing several mechanisms to 
attract Members of the military veteran community, the individual 
franchisees have taken the standard of hiring veterans to another 
level. For example, our franchisee in Brunswick, OH utilized the 
Department of Veterans Affairs' Compensated Work Therapy Program (VA 
CWT) to fulfill his requirement for daily hired help. As a result of 
his efforts and the open lines of communication with the JDog 
franchisor, our company is in the process of establishing a national 
Memorandum of Understanding (MOU) with the VA CWT that will enable all 
franchisees to leverage this program. Additionally, JDog is looking to 
work with veteran organizations at both the franchisee and franchisor 
levels such as the Veterans of Foreign Wars, American Legion, Marine 
Corps League, etc. in order to expand our outreach and have lasting 
partnerships. This approach developed as a result of arguably the most 
important best practice in hiring veterans: create an atmosphere where 
the veterans can take care of each other.
    The underlying spirit of JDog lies not in junk removal and hauling. 
It lies in the commitment veterans and their families have to each 
other. This sense of brotherhood that was imbued in all veterans and 
their families lay dormant for many. We at JDog have revived the sense 
of responsibility to each other and have all grown, both personally and 
professionally, as a result. The veteran community has the willingness 
and capability to excel on a personal and team level, and if one 
fosters an environment that encourages growth, brotherhood, mutual 
support, groupthink, and critiques, military veterans will not only 
gravitate toward the concept, but they will also take the business 
model much further than expected.

                                 
                             Emily Turner, 
                OHIO ASSOCIATION OF GOODWILL INDUSTRIES
    Members of the House Committee on Veterans Affairs:

    My name is Emily Turner and I am the Executive Director of the Ohio 
Association of Goodwill Industries. When people think of Goodwill 
Industries, they usually think of our retail stores. Our retail stores 
are very important as the revenue generated by those stores support our 
mission.

    Our mission, however, is to improve the quality of life for people 
with disabilities and other barriers through the power of work.

    Our association's 16 autonomous Goodwill organizations provide 
employment services throughout Ohio's 88 Counties. Last year, Goodwills 
in Ohio helped over 4200 people secure employment and provided almost 
200,000 instances of employment related services. Many of the 
individuals we work with have served in the military and we are proud 
to be able to assist veterans as they seek and secure jobs.
    Several of the Goodwills in Ohio have specific services tailored 
for veterans. I would like to give you a brief overview of one of 
those.
    Goodwill Easter Seals Miami Valley serves 23 counties in western 
Ohio, including Wright Patterson Air Force Base. In 2014, Goodwill 
Easter Seals Miami Valley led a network of 14 employers, community 
agencies, and service agencies to create the Veterans & Employers 
Connection. The goal of the Connection is to reduce veteran 
unemployment in the state of Ohio. Goodwill's goal is to help 5,000 
veterans secure employment by 2020.
    By working with veterans from all branches of the service, active 
duty, Guard and Reserves, they capitalized on the talents and unique 
skills forged by service. Western Ohio is a magnet for veterans to 
settle and work, and Goodwill Industries has a commitment to help them 
find success. The Connection's holistic approach to working with 
veterans and assisting them to overcome a variety of barriers has 
already had an impact on the reduction of veteran unemployment in the 
23-county greater Miami Valley region. Since the program went live two 
years ago:

    - 649 veterans have found employment which includes 176 placed 
through Goodwill Easter Seals Miami Valley's placement specialists
    - 72 organizations have joined the Connection including 64 
employers committed to hiring veterans

    The director of Veterans Employment Services for Goodwill Easter 
Seals was unable to attend today's hearing, so thank you for allowing 
me to tell you a little bit about their success and about the mission 
of Goodwill Industries.

    My contact information is:
    Emily Turner, Executive Director
    Ohio Association of Goodwill Industries
    1331 Edgehill Road
    Columbus, Ohio 43212
    (614) 583-0319
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7530181c190c2100071b100735321a1a11021c19193a1d1c1a5b1a0712">[email&#160;protected]</a>

Question: What is the Veterans & Employers Connection?

Answer: The Veterans and Employers Connection (``the Connection'') is a 
    community alliance led by Goodwill Easter Seals Miami Valley 
    dedicated to the meaningful, long-term employment of veterans. The 
    Connection was created to address three primary issues:

    <bullet>  High unemployment and under-employment among veterans, 
especially for those from the post 9/11 era and women veterans
    <bullet>  The lack of a single, streamlined support system that 
ties in the large number of support services available for veterans to 
obtain and maintain employment and
    <bullet>  The high percentage of employers who want to employ 
veterans, but don't know how to either reach or successfully employ 
them

Question: What types of organizations participate in the Connection?

Answer: The Connection Membership consists of employers and a wide 
    variety of service providers including government entities, 
    community associations, academia and non-profit organizations. See 
    the ``Members'' page on the Connection's website for the Member 
    list and information about each company.

Question: Is there a cost to join the Connection?

Answer: There is no cost for employers and support organizations to 
    join the Connection. Employers and other organization can 
    voluntarily contribute financially or in-kind to the Connection 
    which is operated under the auspices of Goodwill Easter Seals Miami 
    Valley, a 501(c)3 non-profit organization with headquarters in 
    Dayton, Ohio.

Question: How does my company find out more about becoming a Member?

Answer: Please let us know about your interest to find out more about 
    becoming a Member of the Connection by completing and submitting 
    the Membership information form under the ``Contact Us'' section of 
    this website. This action starts the dialogue but doesn't commit 
    your company or the Connection to Membership.

Question: What is the Connection's definition of a ``veteran?

Answer: Our definition of a veteran is anyone who has worn the uniform 
    of the United States military including current or former 
    Reservists or Guard Members, or who is currently transitioning or 
    preparing to transition from service.

Question: How can the Connection help me if I am a veteran or am 
    preparing to transition from active military service?

Answer: You are the reason the Connection exists so everything we do is 
    geared to support you in your efforts to find and keep a job that 
    interests you. We realize that each person's situation is unique, 
    so we've developed programs and established relationships in the 
    community that allow us to support a broad range of needs in a 
    coordinated, holistic manner.
    Since the Veterans & Employers Connection is a Member-based entity, 
you have access to information about employers who are committed to 
employing veterans - they are ``veteran friendly''. There is 
information about each of our Members on the website, including links 
to the Members' websites. You also have the opportunity to upload your 
resume and to provide pertinent information about you that Connection 
Members will be able to review. Connection staff will also work with 
you and Connection employers to ``connect the dots'' to make the 
process for everyone involved as effective and efficient as possible.

Question: If I am a veteran and would like more information about the 
    Connection, what do I do?

Answer: You have two options to start the process. You can submit your 
    contact information on the Veterans page of this website to let us 
    know you would like to contact you. The second option is to submit 
    your resume and related information through this website. This will 
    give us more information than the first option and will allow us to 
    have a more informed initial conversation with you. Our commitment 
    to you is to get in touch with you within two work days regardless 
    of the option you choose.

Question: Does the Veterans & Employers Connection website collect 
    information from me when I visit the site, and if so, how is it 
    used?

Answer: The Veterans & Employers Connection understands the importance 
    of protecting the privacy of visitors to its Website. Since there 
    are a number of factors related to this issue, we have created a 
    Privacy Policy to provide helpful information to you about our 
    policies and procedures regarding the collection, use and 
    disclosure of personal information we receive when you visit and 
    use the Website. Please see the link to the Privacy Policy at the 
    bottom of this and other pages on the website.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
